<html>
<title> - [H.A.S.C. No. 112-107] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2013 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TWELFTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 112-107]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2013

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

 DEPARTMENT OF DEFENSE FISCAL YEAR 2013 SCIENCE AND TECHNOLOGY PROGRAMS

                               __________

                              HEARING HELD
                           FEBRUARY 29, 2012


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                    U.S. GOVERNMENT PRINTING OFFICE
73-433                   WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1b6a1be91b2a4a2a5b9b4bda1ffb2bebcff">[email&#160;protected]</a>  







           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman
JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                LORETTA SANCHEZ, California
BILL SHUSTER, Pennsylvania           ROBERT ANDREWS, New Jersey
K. MICHAEL CONAWAY, Texas            SUSAN A. DAVIS, California
CHRIS GIBSON, New York               TIM RYAN, Ohio
BOBBY SCHILLING, Illinois            C.A. DUTCH RUPPERSBERGER, Maryland
ALLEN B. WEST, Florida               HANK JOHNSON, Georgia
TRENT FRANKS, Arizona                KATHLEEN C. HOCHUL, New York
DUNCAN HUNTER, California
                Peter Villano, Professional Staff Member
               Timothy McClees, Professional Staff Member
                      James Mazol, Staff Assistant
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Wednesday, February 29, 2012, Department of Defense Fiscal Year 
  2013 Science and Technology Programs...........................     1

Appendix:

Wednesday, February 29, 2012.....................................    37
                              ----------                              

                      WEDNESDAY, FEBRUARY 29, 2012
 DEPARTMENT OF DEFENSE FISCAL YEAR 2013 SCIENCE AND TECHNOLOGY PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     9
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Freeman, Marilyn, Ph.D., Deputy Assistant Secretary of the Army 
  for Research and Technology....................................     3
Gabriel, Kaigham (Ken) J., Ph.D., Deputy Director, Defense 
  Advanced Research Projects Agency, U.S. Department of Defense..     8
Klunder, Rear Admiral Matthew L., USN, Chief of Naval Research, 
  U.S. Navy......................................................     4
Lemnios, Hon. Zachary J., Assistant Secretary of Defense for 
  Research and Engineering, Office of the Under Secretary of 
  Defense for Acquisition, Technology, and Logistics.............     2
Walker, Steven H., Ph.D., Deputy Assistant Secretary of the Air 
  Force for Science, Technology, and Engineering, Office of the 
  Assistant Secretary of the Air Force for Acquisition...........     6

                                APPENDIX

Prepared Statements:

    Freeman, Marilyn.............................................    58
    Gabriel, Kaigham (Ken) J.....................................   115
    Klunder, Rear Admiral Matthew L..............................    75
    Langevin, Hon. James R.......................................    41
    Lemnios, Hon. Zachary J......................................    44
    Walker, Steven H.............................................    96

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................   129
    Mr. Miller...................................................   129
    Mr. Ruppersberger............................................   136
    Mr. Schilling................................................   138
    Mr. Shuster..................................................   134
 DEPARTMENT OF DEFENSE FISCAL YEAR 2013 SCIENCE AND TECHNOLOGY PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                      Washington, DC, Wednesday, February 29, 2012.
    The subcommittee met, pursuant to call, at 3:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
     TEXAS, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Thornberry. The hearing will come to order.
    Mr. Langevin is on his way, and so we will look forward to 
seeing him shortly. But in the meantime, we are supposed to 
have votes at 4:45 or 5:00, and you all could not possibly wait 
through all those votes, so we want to try to get to all our 
questions before that. So we are going to go ahead and get 
started.
    Let me thank everybody for being here. When most of us 
gathered this time last year, we talked about the dangers of 
cutting S&T [Science and Technology] in tight budgetary times, 
and we are having tight budgetary times. According to our 
calculations, these accounts were cut about 2.5 percent. It is 
tempting to say it could have been worse, and obviously it 
could have been. And yet, part of our concern is not just the 
total dollar figure but how we are all spending the taxpayers' 
money. And so there are many topics for us to get to today, and 
we will do so through the course of our questions.
    But let me go ahead and turn to our witnesses. And we 
appreciate each of you being here.
    We have the Honorable Zachary Lemnios, Assistant Secretary 
of Defense for Research and Engineering; Dr. Marilyn Freeman, 
Deputy Assistant Secretary of the Army for Research and 
Technology; Rear Admiral Matthew Klunder, Chief of Naval 
Research; Dr. Steven Walker, Deputy Assistant Secretary of the 
Air Force for Science, Technology, and Engineering; and Dr. Ken 
Gabriel, Deputy Director of DARPA [Defense Advanced Research 
and Projects Agency].
    Each of you have submitted written statements. Thank you 
for those. Without objection, they will be made part of the 
record. And if we could ask each of you to summarize your 
statement in about 5 minutes or so, then we will move from 
there to questions.
    So, Mr. Secretary, I will turn it over to you to start.

 STATEMENT OF HON. ZACHARY J. LEMNIOS, ASSISTANT SECRETARY OF 
   DEFENSE FOR RESEARCH AND ENGINEERING, OFFICE OF THE UNDER 
SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Secretary Lemnios. Good afternoon, Chairman Thornberry and 
members of the committee. I just have a few short statements 
that summarize my written testimony, which will be in the 
record.
    The President's $11.9 billion request for DOD [Department 
of Defense] science and technology supports the President's 
defense strategy and reflects his commitment to ensure a strong 
S&T enterprise to develop the advanced capabilities upon which 
our men and women in uniform have come to reply upon. This 
request provides the necessary resources to maintain the 
decisive technological edge for today's challenges and the 
foundation to stay ahead of the most lethal and disruptive 
threats of the future.
    The ability of the joint forces to project power and 
succeed in future operations is increasingly challenged by new 
capabilities, made possible by advances in technology, and by 
new tactics that employ commercial technologies in new and 
innovative ways. The clear technical advantage upon which our 
forces have come to rely, and which we currently enjoy, can 
only be guaranteed with a dedicated and sustained effort.
    The globalization of technology, which we have discussed 
previously, has enabled the rise of global research and 
development investments and has collapsed the pace of 
innovation for both the U.S. and our adversaries. This has 
opened up new opportunities for technological surprise. It is 
both a challenge and it is an opportunity for exploitation.
    The President's budget request provides the right mix of 
programs and investments in basic, applied, and advanced 
research to guarantee our leadership position. It includes a 
number of enterprise initiatives across the Department that 
ensure these valuable resources are invested wisely, with 
focus, and with the goal of accelerating the transition of 
concepts into capabilities for our forces.
    Importantly, our success is made possible by the important 
work of our dedicated scientists and engineers, both in the 
Department of Defense and in the larger S&T enterprise that we 
discussed this last year. That enterprise is comprised of 
academia, industry, our Federal laboratories, our federally 
funded research and development centers, and our university-
affiliated research centers. This is the most impressive 
collection of technical talent to be found anywhere in the 
world, and our budget request provides the necessary resources 
to keep this enterprise healthy and strong.
    Mr. Chairman, thank you for the opportunity to present 
these brief remarks. The congressional support for the 
President's budget for the research and engineering enterprise 
will have the resources I need to ensure a strong technical 
base to enhance our Nation's security. And I look forward to 
your questions. Thank you very much.
    Mr. Thornberry. Thank you.
    [The prepared statement of Secretary Lemnios can be found 
in the Appendix on page 44.]
    Mr. Thornberry. Dr. Freeman.

STATEMENT OF MARILYN FREEMAN, PH.D., DEPUTY ASSISTANT SECRETARY 
            OF THE ARMY FOR RESEARCH AND TECHNOLOGY

    Dr. Freeman. Good afternoon. Thank you, Chairman Thornberry 
and the distinguished members of the subcommittee. I appreciate 
the opportunity to discuss the fiscal year 2013 Army S&T 
program and the significant role of S&T in supporting our 
warfighters.
    I want to thank the members of this committee for your 
important role in supporting our soldiers who are at war and 
for your advocacy of the Army's S&T investments that will 
sustain our technological preeminence to our future soldiers. 
Your continued support is vital for our success.
    My vision for Army S&T is to invent, innovate, and 
demonstrate technology-enabled capabilities that empower, 
unburden, and protect our soldiers. I hear often, as I am sure 
you do, from soldiers themselves that technology saved their 
lives and was critical to their remarkable accomplishments.
    When I became DAS [Deputy Assistant Secretary] of R&T 
[Research and Technology] a year and a half ago, I embarked on 
a path to change the perception that Army S&T was irrelevant. 
This path is leading to a significant change in the S&T 
culture, and it is still a work in progress. We now actively 
engage with senior Army leadership, the Army staff, senior 
executives of the laboratories and centers, and all parts of 
TRADOC [U.S. Army Training and Doctrine Command] to establish 
real priorities for Army S&T prior to the beginning of the 
formal Army POM [Program Objective Memorandum] cycle.
    In 2011, for the first time, we collaboratively developed a 
set of 24 challenges on which to focus our near-term research 
efforts. We formulated a number of new programs to begin in FY 
[Fiscal Year] 2013 that address these challenges and by the end 
of FY 2017 to demonstrate new technology-enabled capabilities.
    In the coming year, I intend to develop a set of programs 
to better define and prioritize the rest of the S&T portfolio. 
For the remainder of the 6.2 and the 6.3 funding, we will 
formulate programs to meet the midterm needs of the program 
executive offices and program managers. We will also create 
programs to develop and demonstrate technologies that have a 
high potential to bridge gaps or achieve leap-ahead 
technologies and capabilities.
    Additionally, we will establish a set of priorities for our 
basic research efforts--problems and challenges against which 
better programs can be formulated and executed. Of course, we 
will do all of this in concert with the guidance provided by 
the Defense Strategy for the 21st Century and the OSD [Office 
of the Secretary of Defense] S&T priorities.
    In 2013, the Army is placing increased emphasis on 
investment in ground and aviation vehicle survivability, 
research in focal plane arrays, and alternative fuels for 
ground vehicles. We will accept some greater risk through 
reducing funding in lethality, unmanned autonomous ground 
vehicles, and military engineering.
    As we adjust to an era of decreasing or flat budgets, Army 
S&T must be capable of doing more with less and correctly 
managing the risk associated with shrinking budgets by 
identifying and focusing on the highest priorities for the 
future. I believe that the S&T management strategy allows us to 
do just that.
    And as I mentioned last year, I continue to have major 
concerns with the long-term health of our laboratory--both 
infrastructure and workforce. And as Dr. Lemnios has said, it 
is important that we keep the cadre of scientists and engineers 
in our laboratory systems to solve our problems. It is 
absolutely essential that we work on this problem together, and 
I hope to do so with you.
    While we have some basic improvements to our infrastructure 
through the BRAC [Base Closure and Realignment] processes, we 
do not have a long-term good policy or answer to how we work on 
our infrastructure. And we really, really need to have more 
discussions about that.
    In closing, I would like to thank you, Mr. Chairman, for 
the opportunity to testify here and for your support of the 
Army's science and technology investments. I am proud to 
represent the efforts of over 12,000 Army scientists, 
engineers, technicians, and research professionals dedicated to 
our soldiers with world-class technology-enabled capabilities.
    I will be pleased to answer your questions and those of 
this subcommittee.
    Mr. Thornberry. Thank you.
    [The prepared statement of Dr. Freeman can be found in the 
Appendix on page 58.]
    Mr. Thornberry. Admiral.

   STATEMENT OF RADM MATTHEW L. KLUNDER, USN, CHIEF OF NAVAL 
                      RESEARCH, U.S. NAVY

    Admiral Klunder. Good afternoon, Chairman Thornberry, 
Ranking Member Langevin, and the members of the committee. It 
is certainly an honor to be here before you today to report on 
science and technology efforts within the Department of the 
Navy and assess how the President's FY 2013 budget request 
supports the Navy and the Marine Corps.
    I am accompanied today by Brigadier General Mark Wise, the 
commander of the Marine Corps Warfighting Lab in Quantico, 
Virginia. He is a great partner in our effort to lead the Navy 
and Marine Corps science and technology community.
    Our objective is to support a Navy and Marine Corps capable 
of prevailing in any environment, with the understanding that 
anti-access and area-denial threats will continue to increase 
in the future. We work directly with the Secretary of the Navy, 
the Chief of Naval Operations, and the Commandant to achieve 
this goal.
    We do that by, one, focusing on S&T areas with big leap-
ahead payoffs, but also, two, encouraging innovative thinking 
and business processes to make our existing systems more 
effective. And finally, three, we are constantly striving to 
improve transition of S&T into acquisition programs to enable 
the most cost-effective weapons systems possible. In the spirit 
of this striving for affordability, we are also working to 
strike the right balance between responsive near-term 
technology insertions and also long-term basic research.
    While the starting point is continued evolution of current 
systems, we progress toward incremental improvements in spiral 
development of known technologies to new development of 
undiscovered, disruptive technologies. Our portfolio across all 
the Navy and Marine Corps balances a range of complementary but 
also competing imperatives, in that we support advances and 
initiatives in existing established operational areas while 
still also looking at a far-reaching complement of long-term 
research efforts that may prove disruptive to traditional 
operational concepts.
    Our ability to support the warfighter also depends on our 
ability to sustain a science and technology, engineering, and 
mathematics workforce in our Active and Reserve ranks and our 
research laboratories. We believe the key to achieving this 
goal lies in supporting STEM [science, technology, engineering, 
and mathematics] education in a continuum of experiences from 
kindergarten all the way through postdoctoral opportunities.
    Now, I believe many of you all and certainly your staffs 
are familiar with many of our technology programs. If I can, I 
would just like to highlight two: the Electromagnetic Rail Gun 
and the Free Electron Laser [FEL].
    Our discussions with your staff during the FY 2012 
authorization process led to refinements in that rail gun 
program and planning, about which SECNAV [Secretary of the 
Navy] and I will come to you later next month to report as per 
the FY 2012 National Defense Authorization Act.
    Similarly, the discussions within the Navy and with your 
staff also led to refinements in the FEL program which we 
intend to implement this year. In that implementation where we 
are focusing on components of FEL, we are also looking to 
mature our Solid State Laser Technology with our sister 
services.
    We have made significant contributions to the fleet and the 
force's ability to share information across combat systems; 
command and control systems; and intelligence, surveillance, 
and reconnaissance systems. In the world of cyber warfare and 
information dominance, we do believe it is critical that we are 
able to integrate systems into a common information environment 
that is modular, based on open standards, automated, and allow 
for a reduction in manpower requirements and acquisition costs.
    All of these issues are outlined in some detail in my 
written testimony, along with more detailed surveys that are 
enclosed in our ONR [Office of Naval Research] contributions, 
such as areas of irregular warfare, unmanned systems, and also 
medical care for our wounded warriors.
    I would certainly be remiss if I did not mention the 
stellar contribution that is made by our entire workforce at 
all the Navy labs and warfare centers, with special recognition 
for the Naval Research Laboratory [NRL] right nearby in 
Anacostia. Many of your staff have visited, but I certainly 
invite all of you to take advantage of an opportunity to see 
this nearby facility firsthand. The work is absolutely 
impressive. The people are impressive. One of our greatest 
challenges, certainly, as Marilyn alluded to, is to 
recapitalize on our facilities--in this case, the NRL 
facilities--and to ensure continuation of their cutting-edge 
work.
    I thank you again for your tremendous support, and I look 
forward to answering your questions. I do believe that the 
state of our Navy and Marine Corps S&T investments are sound. 
They represent good stewardship of the taxpayers' dollars. And 
we believe they enhance significantly the safety and 
performance of our warfighters today and well into the future.
    And thank you, sir. I will be ready for any questions.
    Mr. Thornberry. Thank you.
    [The prepared statement of Admiral Klunder can be found in 
the Appendix on page 75.]
    Mr. Thornberry. Mr. Walker.

    STATEMENT OF STEVEN H. WALKER, PH.D., DEPUTY ASSISTANT 
    SECRETARY OF THE AIR FORCE FOR SCIENCE, TECHNOLOGY, AND 
ENGINEERING, OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE 
                        FOR ACQUISITION

    Dr. Walker. Mr. Chairman and members of the subcommittee 
and staff, I am pleased to have the opportunity to provide 
testimony on the fiscal year 2013 Air Force science and 
technology program.
    To protect our Nation amidst a myriad of current and future 
security challenges, the Air Force must be an agile, flexible, 
ready, and technologically advanced part of the joint team. The 
Air Force S&T program plays a vital role by creating compelling 
air, space, and cyberspace capabilities for precise and 
reliable global vigilance, reach, and power.
    The Air Force 2013 President's budget request for S&T is 
approximately $2.2 billion, which includes nearly $200 million 
in support of devolved programs consisting of High Energy Laser 
efforts and the University Research Initiative.
    This year's budget request represents a decrease of $64 
million or about a 2.8 percent reduction from fiscal year 2012. 
This reflects a more modest reduction than taken across the 
total Air Force budget and indicates the strong support for 
science and technology from our leadership.
    The Air Force S&T fiscal year 2013 President's budget 
request supports the following overarching priorities, as 
detailed in our S&T strategy.
    Priority one is to support the current fight while 
advancing breakthrough S&T for tomorrow's dominant warfighting 
capabilities.
    While developing technologies to equip our forces of 
tomorrow is the primary objective of S&T, our dedicated 
scientists and engineers are equally motivated to contribute to 
the current fight by getting their technologies into the hands 
of the warfighter.
    For example, Air Force S&T has played a significant role in 
developing and delivering combat capability to our warfighters 
in the CENTCOM [U.S. Central Command] AOR [area of 
responsibility] through the deployment of a concept or a system 
called Blue Devil. This persistent intelligence, surveillance, 
and reconnaissance capability demonstrated the first-ever 
integration of wide-area field-of-view and narrow field-of-
view, high-definition, day and night sensors cued by advanced 
signals intelligence. Warfighter feedback on the situational 
awareness provided by Blue Devil Block 1 has been 
overwhelmingly positive.
    Priority two is to execute a balanced, integrated S&T 
program that is responsive to the Air Force core functions.
    In light of the defense strategic guidance released last 
month, we ensured our current strategies and plans were 
appropriately aligned with new and enduring emphasis areas. Our 
S&T program supports the Air Force capabilities fundamental to 
the major priorities of the guidance, such as deterring and 
defeating aggression; projecting power in anti-access and area-
denial environments; operating in the space and cyberspace 
domains; and maintaining a safe, secure, and effective 
strategic deterrent.
    We have also engaged the small-business community in this 
endeavor through the Rapid Innovation Fund, which is focused on 
key technology areas such as supporting current contingency 
operations, cyberspace security, mission assurance, improved 
systems sustainment, and power generation and energy for our 
platforms.
    Priority three is to retain and shape the critical 
competencies needed to address the full range of S&T product 
and support capabilities.
    We are continuing to support Air Force science, technology, 
engineering, and mathematics [STEM] initiatives to develop and 
optimally manage the S&T workforce of the future through our 
Bright Horizons strategic document. Our newly established Air 
Force-level STEM outreach office ensures effective coordination 
with other service and agency STEM programs and gives us a 
better understanding of the effectiveness and impact of our 
STEM investments.
    Finally, priority four is to ensure the Air Force S&T 
program addresses the highest priority capability needs of the 
Air Force.
    Our process for creating and executing Air Force flagship 
capability concepts over the last 2 years is maturing well. We 
have continued the High Velocity Penetrating Weapon concept to 
demonstrate critical technologies to reduce the technical risk 
for a new generation of penetrating weapons to defeat 
difficult, hard targets. And we have continued the Selective 
Cyber Ops Technology Integration Program, which is executing 
smoothly toward providing cyber technologies capable of 
affecting multiple nodes for the purposes of achieving a 
military objective.
    While the Air Force decommissioned our Responsive Space 
Access FCC [Flagship Capability Concept] during our annual 
review this year, we commissioned a new FCC for Precision 
Airdrop to develop technologies to improve airdrop accuracy and 
effectiveness while minimizing risk to our aircrews.
    In conclusion, this budget request reflects our refocused 
S&T portfolio given budgetary challenges and the new defense 
strategic guidance. I believe this request also reflects the 
promise of future warfighting capability enabled by the 
technologies that will be developed with this investment.
    Mr. Chairman, I thank you again for the opportunity to 
testify today and thank you for your continued support of the 
Air Force S&T program.
    Mr. Thornberry. Thank you.
    [The prepared statement of Dr. Walker can be found in the 
Appendix on page 96.]
    Mr. Thornberry. Mr. Gabriel.

STATEMENT OF KAIGHAM (KEN) J. GABRIEL, PH.D., DEPUTY DIRECTOR, 
 DEFENSE ADVANCED RESEARCH PROJECTS AGENCY, U.S. DEPARTMENT OF 
                            DEFENSE

    Dr. Gabriel. At DARPA, we are often asked to predict the 
future. After all, since it was created in 1958, DARPA's 
singular mission has been to prevent and create strategic 
surprise. It may appear that the best way to fulfill that 
mission is to predict what is next. But at DARPA we believe it 
is not about predicting the future, it is about building it.
    Chairman Thornberry, Ranking Member Langevin, members of 
the subcommittee, my name is Ken Gabriel. I am the Deputy 
Director of DARPA.
    I could discuss some of the Agency's accomplishments over 
the last year, including the second flight of HTV-2 [Hypersonic 
Test Vehicle-2] or Blast Gauge, a wristwatch-sized device to 
measure overpressure and TBI [traumatic brain injury]. But 
instead what I would like to talk to you about today is what 
keeps us up at night.
    In anti-access and area-denial, the global electronics 
industry unintentionally and without malice has created 
vulnerabilities. Computing, imaging, and communication 
capabilities that as recently as 15 years ago were the 
exclusive domain of military systems are now in the hands of 
hundreds of millions of people around the world.
    We don't argue against the benefits such capabilities have 
brought. Indeed, many of the commercial advances have roots in 
DARPA programs from decades past. But these vulnerabilities are 
not an abstract threat. Electronic warfare was once the 
province of a few peer adversaries. Today it is possible to 
purchase commercial-off-the-shelf components for more than 90 
percent of the electronics in an EW [electronic warfare] 
system. Nearly a dozen countries are now producing EW systems 
at ever-increasing pace, from a new system every 10 years 
decades ago to one every 1\1/2\ years today.
    These insights led us to new investments that leverage COTS 
[commercial-off-the-shelf] technology where we can and develop 
technologies where COTS can't or won't go. One example of 
leveraging COTS is the Intrachip Enhanced Cooling Program. 
Cooling a COTS chip allows us to, for example, run the chip 10 
times faster than it was designed to run, creating 
differentiating capabilities for ourselves. DARPA's Adaptive RF 
[Radio Frequency] Technologies Program seeks to extend the 
range of military radar and radios by developing high-power 
transmit and receive modules--something the commercial industry 
has no use for and where COTS won't go.
    In cybersecurity, there has been much focus on increasing 
our defensive capabilities, but we require capabilities in both 
defense and offense across the full spectrum of conflict. DOD 
tasks and purposes are sufficiently different that we cannot 
simply scale intelligence cyber capabilities and adequately 
serve the needs of the DOD. Modern warfare demands the 
effective use of cyber and kinetic means. That requires DOD 
cyber capabilities matched to our kinetic options.
    We launched several programs designed to create cyber 
capabilities with the diversity, dynamic range, and tempo of 
DOD operations. Cyber Fast Track is just one such program. It 
taps a pool of nontraditional experts and innovators, many of 
them members of the ``white hat'' hacker community. To some, 
``hacker'' evokes concern, but ``hacker'' is a positive term 
that describes a person of exceptional capability and 
creativity, someone who sees a novel use for an existing 
capability or technology.
    In the last 7 months, more than 100 proposals were received 
and 32 awards were made, 84 percent of them small companies and 
performers who have never done business with the government 
before. Cyber Fast Track is expanding the number and diversity 
of talent contributing to the Nation's cybersecurity.
    Some of these observations today feel uncomfortable, even 
to us. Our responsibility, however, is to the uncomfortable. 
They are the seeds of what allow us to fulfill our mission to 
prevent and create strategic surprise.
    Thank you.
    Mr. Thornberry. Thank you.
    [The prepared statement of Dr. Gabriel can be found in the 
Appendix on page 115.]
    Mr. Thornberry. And I really appreciate everybody being 
brief. This is always a challenging hearing for me because 
there are so many interesting things to talk about, it is hard 
to talk about it within the time limits that we have. But you 
all did a good job, and I appreciate it.
    I am going to yield first to Mr. Langevin for any opening 
statement he would like to make and then go right ahead with 
any questions you may have.
    Mr. Langevin.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman.
    And thanks to all of our witnesses for appearing today.
    Like all of us on this committee, I believe that much of 
our Nation's military and economic strength lies in our ability 
to lead the world in innovation and that the defense science 
and technology enterprise continues to be a major contributor 
to that leadership. I am pleased the President's recently 
released defense strategic review recognizes this. And in light 
of necessary fiscal tightening, his fiscal year 2013 budget 
request largely protects defense science and technology 
investments.
    Portions of those funds are targeted for STEM education 
activities--a key investment in maintaining strong intellectual 
capital and technological advantage in this country. I believe 
all of you in your written testimony noted, to some extent, 
your overall interest and concern toward fostering and 
maintaining a world-class scientific workforce.
    I share that interest and strongly believe that the 
Department of Defense plays an important role in the entire 
STEM education pipeline--a pipeline of professionals that not 
only develops new and improved warfighting capabilities but 
also prepares competent operators and maintainers of these 
game-changing technologies. I look forward to hearing more from 
our witnesses today on each of your efforts in this area.
    I particularly want to applaud you, Admiral, for the Navy's 
commitment to double Naval STEM investment by FY 2015. I also 
would like to highlight ONR's recent recognition as a leader 
among industry and government in promoting workforce diversity 
and developing strong partnerships with minority-serving 
institutions to advance STEM academic excellence throughout all 
sectors of our future workforce.
    Much of the Department's basic research investment goes 
directly to universities to advance our understanding across a 
wide array of disciplines, building upon the critical 
investments at the K-12 level and producing benefits not only 
to our national security but also to the leadership of the 
United States in academic research and development. I firmly 
believe that outreach to and engagement with our youth are the 
best investments we can make to ensure a technological edge in 
the future.
    Dr. Freeman, I appreciate the concerns raised in your 
written testimony about our defense R&D [research and 
development] facilities. These facilities provide needed 
capabilities for DOD with their uniquely skilled personnel and 
for our overall R&D efforts.
    Labs are also key to attracting the best and the brightest 
to solve difficult problems. But, conversely, if not properly 
resourced, inadequate facilities and equipment can make it 
harder to attract and retain the personnel that we need, let 
alone stay ahead of our technological competitors.
    During similar budget posture hearings, some of your 
Department colleagues responsible for big weapons procurement 
may talk about one system that, alone, could cost over $100 
million. One hundred million dollars in the S&T world could 
mean dozens of early-stage programs or demonstration programs.
    I recognize that you can't go through your entire S&T 
portfolio in one hearing, but I would appreciate a brief 
comment on areas supporting directed energy and the development 
and tests of technologies supporting prompt global strike 
objectives. And for those of who you would care to elaborate on 
cyber, I would appreciate that, as well.
    Additionally, I believe this committee and, frankly, all of 
Congress would benefit from your oral statement on the 
implementation and early successes, if any, of the Rapid 
Innovation Program.
    And lastly, but with special importance to myself and the 
chairman, I would like to take some time today to explore the 
critical and uniquely dynamic area of cybersecurity research 
and development. As we all know, the Nation faces serious 
cybersecurity threats and vulnerabilities that cut across 
``.mil,'' ``.com,'' and ``.gov'' alike. I look forward to 
hearing more about the Department's research investments and 
strategy to develop the tools and capabilities that we need to 
operate effectively and securely in the cyber domain, both now 
and in the future.
    With that, I would like to thank all of you once again for 
appearing before us today, and I look forward to our questions. 
Thank you very much.
    And, with that, Mr. Chairman, I will yield back.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 41.]
    Mr. Thornberry. Do you want to go ahead and do your 
questions?
    Mr. Langevin. Sure. Very good. Thank you, Mr. Chairman.
    Dr. Gabriel, if I could start with you. With the rapidly 
changing needs of today's warfighter, how does DARPA choose 
what to invest in and what to build? In other words, how do you 
come to the decision that a subject area is ``DARPA hard''?
    Dr. Gabriel. Well, sir, as you might imagine, the challenge 
at DARPA is not coming up with ideas, it is choosing from among 
them, as you point out.
    We do deep analytical analysis of thrust areas that we see 
as important capabilities for the Department and national 
security. Those analytics define and point out areas where we 
see divergences and where we see opportunities. We have done 
them in a number of areas, including cyber, which many of you 
have seen, the Cyber Analytical Framework.
    And from those frameworks, we take the ideas and 
essentially ask three key questions: Is this area game-changing 
and will it have lasting impact? The second criteria we assess 
it against is, is this an area that requires DARPA expertise 
and capabilities? Not every idea worth doing is something that 
DARPA should do. The third question that we ask when we assess 
choosing between programs is, how does it balance the rest of 
our investments? Because we have limited resources in bandwidth 
and we must choose our investments wisely so that we can meet 
the mission of the Agency to prevent and create strategic 
surprise.
    Mr. Langevin. Thank you, Dr. Gabriel.
    Let me turn to cyber and Secretary Lemnios.
    I am pleased to see the emphasis on cybersecurity in each 
of your testimony here today. And I am also pleased that since 
last year's hearing on these matters the Department of Defense 
has identified cyber as one of the Department's seven key S&T 
areas.
    Secretary Lemnios, how are you ensuring that the various 
defense cyber R&D efforts are both responsive to the DOD's 
strategy for operating in cyberspace and well-coordinated 
across agencies and individual laboratories?
    Secretary Lemnios. Representative Langevin, we are--as you 
know, cyber is one of our Department's seven S&T priorities. We 
began the rebalance of the S&T enterprise for the Department 
about 18 months ago in identifying those priorities. And in 
doing so, we had long conversations with the operators--with 
the uniformed members of the services and the operators that 
would actually use those capabilities. We built a set of 
architectures, and we are actually now working the capability 
sets to develop that tech base.
    With regard to cyber, I imagine you see all sorts of folks 
in this room that can give you opinions on how to assess the 
quality of cyber concepts. We have had the discussion both in 
the private sector and certainly in government circles.
    The focus of our effort this past year has been to build a 
measurement framework so that we can start assessing with data 
how fragile our networks are, where there are vulnerabilities, 
and how do we take S&T concepts, science and technology 
concepts, and transition those.
    DARPA has been a key part of that, in developing cyber 
range concepts several years ago. We started to transition 
those well into the services and into other agencies. And 
across the Department, I have brought together--we have brought 
together the science and technology community to start working 
those issues in collaboration. So we, in fact, have efforts 
that are cross-correlated across the enterprise.
    I think the focus here is the pace of innovation in cyber 
and how we transition those concepts. And as I have spoken with 
many of you before on this, that has been some of your 
concerns. How do we transition ideas from a research bench into 
an operational bench? And we are actually very focused on that.
    Mr. Langevin. Very good.
    Obviously, one of the priorities that I have, too, is 
making sure that we are continuing to develop the cyber 
workforce and that we make sure that we have good situational 
awareness about who has those capabilities within the various 
services. And something I encourage you to consider is pressing 
the various services to survey in those areas.
    You know, some of the brightest minds, in many ways, with 
cyber, they may not be the admirals and the colonels and the 
captains. It is going to be the newest recruits, you know, who 
grew up with this technology and can take to this stuff like 
fish to water. We ought to have a robust understanding of what 
those capabilities are and how we can plug them into the right 
fields.
    Let me just turn before my time expires. Dr. Gabriel, you 
noted, I believe correctly, that we simply cannot scale 
intelligence community cyber capabilities to the needs of 
``.mil.'' Additionally, in the past, Dr. Dugan has stressed the 
need to address the divergence of the threats we face and the 
defenses that we use against them. Where do you view DARPA's 
niche with regards to addressing tomorrow's cyber challenges?
    And for the panel, if you could comment, what do we need to 
change to ensure that we are better able to identify and 
mitigate risks in the cyber domain?
    Dr. Gabriel. So, sir, one of the ways in which we have been 
looking at how we can uniquely contribute in this area is 
recognizing that cybersecurity is not just about bits and 
networks; it is about the security of physical systems and 
embedded systems.
    And an activity that we are undertaking, which we would be 
happy to come and talk to you in a more classified environment 
about, is how we, from our unique perch, are able to bring 
together folks from across the spectrum for that kind of threat 
and look at systems not only from the perspective of computer 
science and cybersecurity folks but EW people, embedded 
systems, and computer architecture, and knock down the walls 
between those stovepipes so that we can get an integrated look 
at what are the opportunities and the threats involved in that 
and, from that insight of the integrated look, get new 
capabilities and new solutions that were not possible to get 
from any one domain itself.
    So that, along with some of the things we have talked about 
in the past about how we become convergent with the threat of 
cyber by programs like PROCEED [Programming Computation on 
Encrypted Data] and CRASH [Clean-Slate Design of Resilient, 
Adaptive, Secure Hosts], which we have described before, which 
seek to attack the asymmetry of the cybersecurity challenge.
    Mr. Thornberry. Let me get back around, if I could, so 
other Members can have a chance to ask. And then we will come 
back to this cyber, because I think Mr. Langevin asked a very 
good question of everybody, and I want to get back because I 
think everybody has a contribution to make here.
    Let me just, from an overall standpoint, ask each of you to 
comment on your budget in the following ways: Number one, what 
have you done differently as a result of the new strategy, if 
at all?
    Number two, what are you doing less of? And, Dr. Freeman, 
you mentioned some of this in your opening statement. The Air 
Force written statement gives, you know, pretty blunt, ``We 
have to do less of this thing.'' And that is what we need to 
know, too.
    So if we could just go down the line very briefly in my 5 
minutes, how does the strategy affect what you are doing, and 
what you are doing less of that would increase risk?
    Secretary Lemnios.
    Secretary Lemnios. So, again, we started this process 
almost a year ago, 18 months ago, in looking at what the S&T 
priorities--how those line up.
    In fact, I had an opportunity last fall to take about 3 
months and go through the entire scope of the Department's 
projects--270 program elements, 30,000 briefing charts. I 
visited all of our laboratories and all of the programs that we 
could, sort of, go through. The result of that was to give me 
confidence that not only the dollar request but the content of 
that request was properly aligned. So I was looking for those 
places that would align--those concepts, the technical concepts 
that would align to the Department's strategy that came out 
about a month ago.
    And, as a result, in the President's budget request we 
realigned projects. We added a big push in hypersonics. We put 
a big push in the Air Force in an advanced engine. We put 
additional funding in the Army for advanced imagers. Funding at 
DARPA was added in advanced manufacturing, about $300 million. 
We added funding in a variety of areas--electronic warfare, 
cyber autonomy. So we actually shaped this budget based upon a 
close look at the projects we had in concert with the 
Department's strategy.
    At the OSD level, at the Department level, within my direct 
office, I actually reduced our staffing, and I pushed many of 
the projects that we were executing within OSD out to the 
services to execute. I think it is a far more effective way to 
run those. It is a tighter coupling to the services, and it 
results in far better transitions.
    Mr. Thornberry. Okay. Thank you. And I realize this is hard 
to get in the limited time we have, but I appreciate the 
specifics. That helps.
    Dr. Freeman.
    Dr. Freeman. So your first question is what have we done 
differently in light of the 21st-century strategy that came 
out, and, basically, right now we have not done a lot. It has 
not made us change a lot in our focus, because over this last 
year our focus had already shifted to the soldier and the small 
combat unit and what they need and the capabilities they need, 
which are really wherever they go, to do all the missions that 
need to be done. So we did not take a look at really changing 
anything in this budget to do that.
    We did, however, intend to be--as I described, our process 
intends that we can actually take a look now over this next 
year to anything we need to do in the 6.2 and the 6.3 budget 
that would need to be shifted, as we look. And we did take a 
little extra risk, as I said, in unmanned vehicles, the 
command-and-control of them, focusing the additional effort in 
autonomy to understanding the issues that soldiers have with 
respect to trust of autonomous vehicles, trust of ground 
vehicles and being able to use them as team members. And we 
also took a little bit in the UAV [unmanned aerial vehicle] 
airborne radar world, because we just didn't have enough money 
to focus on more than one radar at the time. I think those are 
the two major efforts.
    Mr. Thornberry. Thank you. That is exactly what I am 
looking for.
    Admiral.
    Admiral Klunder. Yes, Mr. Chairman, with our budget, we 
felt--even before the new DOD strategy came out, we certainly 
got enough assessments and capability gaps to understand that 
we needed to refocus and know where the tilt in our anti-access 
and area-denial focus should be.
    We actually had before this DOD strategy came out in 
January, we had 13 focus areas for the Naval S&T strategic 
plan. We have now brought those down to a total of 9. I will 
offer that, of those nine, five of them are specifically 
directed toward anti-access/area-denial. That would be assured 
access, battle space, it would be autonomy and unmanned 
systems, expeditionary and irregular warfare, our information 
dominance in cybersecurity, and then our power projection and 
integrated defense. Those are the five that were brought into 
the A2/AD [anti-access/area-denial] specifically.
    In what we haven't done, for the last number of years--and 
we are not patting ourselves on the back--but we have by far 
had the most accurate oceanographic modeling forecasting models 
in the world. We certainly aren't doing away with those; they 
are very important. But we know that at this point, in terms of 
maturity, we are in pretty good shape there, and those could 
take a slight reprieve.
    I would also offer that in some of our plan form designs, 
we are very mature, in the ships we have designed recently and 
some of our planned aircraft. We think, again, right now, for 
this time being, we haven't done anything dramatic but we have 
at least reduced some of the focus there.
    Mr. Thornberry. Okay.
    Admiral Klunder. I think that would probably be the two 
areas, sir.
    Mr. Thornberry. That is great.
    Dr. Walker.
    Dr. Walker. Sir, we responded to the defense planning 
guidance, spent the better part of 2 to 3 months working with 
the lab to identify where we should lead, watch, or integrate 
with others and then follow, based on our core competencies as 
well as the new strategy.
    We are all over the A2/AD area in the Air Force. We have a 
new investment in turbine engine--adaptive technologies for 
turbine engines. This is an area where we have always led and 
want to continue to lead. Hypersonics and supersonic activity 
for ALCM [Air Launched Cruise Missile] replacements and looking 
at how we do things quicker and over longer ranges. And then 
weapons for fifth-gen aircraft, we want to develop those, as 
well as electronic warfare as we move into A2/AD environments.
    Where we had to decrease was work in micro UAVs, deployed 
airbase technologies, some thermal sciences, and then some 
plug-and-play activity for small sats that we just never got 
the industry to buy into.
    Mr. Thornberry. Yeah.
    Dr. Walker. Thank you.
    Mr. Thornberry. Okay. Perfect.
    Dr. Gabriel, did the strategy affect you all?
    Dr. Gabriel. Well, sir, we are certainly informed by the 
strategy, but along with our own analytic frameworks which I 
have just discussed with you, with ISRs [intelligence, 
surveillance, reconnaissance] and others--position, navigation, 
and timing.
    I can summarize that what we have done and what we are 
doing more of is cyber and manufacturing--cyber in particular, 
both defense and offense, and particularly cyber capabilities 
that are uniquely DOD needs vice, say, intelligence needs.
    Mr. Thornberry. Uh-huh.
    Dr. Gabriel. In manufacturing, it is one that you have 
heard us talk about before: controlling for time, to get at 
some of the vulnerabilities associated with the increasing time 
that it takes us to field defense systems.
    What we are doing less of is energy and autonomy, frankly. 
Not that we are never going to do things in those areas again, 
but we have finite resources and we are focusing them on cyber 
and manufacturing.
    Mr. Thornberry. Interesting. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you all, witnesses, for being here, for your 
testimony, and for, as the chairman said, keeping that 
testimony under 5 minutes. It may be a world record, I don't 
know. I hope somebody recorded it.
    I was very fascinated by the testimony, particularly of the 
Navy and the Air Force, on STEM. You have several pages, 
Admiral, in your testimony. And, Dr. Walker, you mentioned it. 
I actually don't know anybody who is opposed to more science, 
technology, engineering, and mathematics education. Mr. 
Langevin missed it.
    Last year, I was invited to speak to a group of chamber 
folks in Rochester, Minnesota. They were exploring what the 
chamber could do about STEM, and so they wanted to know--they 
wanted me to come down and talk about what the Federal 
Government was doing about it. And knowing I had to give that 
speech, I actually looked it up--actually, my staff did. And it 
turns out that, at that time last summer, there were 209 
Federal STEM programs--209. And I don't know if that included 
Iridescent, Sea Perch, FIRST [For Inspiration and Recognition 
of Science and Technology] Robotics, Youth Exploring Science, 
and the rest of them.
    And I see, Admiral, that ONR was tasked with coordinating 
Naval STEM educational and outreach activities. And apparently, 
the ONR Naval STEM Coordination Office ``provides a cohesive 
approach to STEM education and outreach across the service 
laboratories and warfare centers.''
    Dr. Walker, you have something called Bright Horizons.
    What I am getting at and what is my question--and I am just 
sort of focusing on you two--is, how coordinated are you? I 
mean, it does seem to me that 209 may be enough, in terms of 
numbers of programs. And you are involved in them at the 
kindergarten level.
    Gosh, I hope you have a lot of people and a lot of money to 
do this or at least that you are, in fact, coordinated and know 
what those other 208 programs are, so that we can make sure we 
are getting a return.
    Admiral, tell us how that is working.
    Admiral Klunder. Yes, sir. The timing of your question is 
perfect, sir, because just this morning I had coffee with a 
large, large room of exactly those individuals, to try and 
coordinate those efforts. I think everyone, and certainly from 
the Navy and Marine Corps, we value STEM. We feel that everyone 
has been very excited about it.
    But what we are trying to do, in that exact point, sir, 
about coordinating the efforts and really true collaboration so 
we are not duplicating efforts, now what we are trying to do 
is--and we had this very healthy talk this morning--we have 
tried to move to a next level, a phase two of the effort. And I 
don't mean from funding, necessarily. I mean from, have we 
truly identified those events, those project-based learning--
not daylong events but maybe it is a 2- or 3-day-long event, 
trying to determine where do we get the best return, the best 
connective tissue that leads us into an actual person, young 
person, entering a STEM kind of career path for the future.
    I am here, frankly, as I always would, sir, to tell you 
that the initial phase of this was a lot of excitement, a lot 
of movement, a lot of momentum, but, truly, we haven't--the 
collective group hasn't been able to identify yet where were we 
on a return. Now we are starting to see that. We are starting 
to look at, were the internships increased? Were the direct 
entry in the Navy and Marine Corps with a STEM background 
increased? Were our undergraduates going to a graduate program 
that may service not only just a Navy and Marine Corps 
laboratory but also my colleagues' laboratories but also just 
the Nation as a whole?
    And that is what we are trying to get right now for not 
only the Secretary of the Navy but working with my colleagues 
in the Air Force, sir.
    Mr. Kline. Thank you. So this meeting today included just 
Navy-related, or did the Air Force folks come in?
    Admiral Klunder. We had a number across not just Navy and 
Marine Corps disciplines but also a number of those civilian 
organizations you just described, sir.
    Mr. Kline. Well, that is good to hear. And I think it is 
important that you do that. I hate to see us putting the scarce 
resources of people, as we are cutting them back, the DDR&E 
[Deputy Director for Research and Engineering] or the Assistant 
Secretary--so it has already cut back staff. And yet we have 
people with great excitement and great goodwill running around 
trying to help in the STEM area.
    And I do think that 210, 211, 212, 213, 214, 215 may be 
just a tad more than we need. I would a whole lot rather see 
them coordinated and get some return for that investment. And I 
appreciate your effort there.
    And I yield back.
    Mr. Thornberry. Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you all for joining us.
    Secretary, I wanted to ask you about your department's 
Office of Small Business Programs and the Rapid Innovation 
Programs that you have put the request out for, I guess, and 
you said four areas. And it sounds like you had a good response 
to that.
    But I wonder if you could tell us a little bit more about, 
were you tasking generally just these four areas? And what do 
you have to help us out with these? If you got that many 
responses, you know, how are you dealing with that?
    One of the things that I bet I share with all of my 
colleagues is a lot of frustration on the part of small-
business developers, that it is very hard for them to get 
through the morass of--getting attention, obviously, when they 
have something significant.
    Could you just talk a little bit more about that? And what 
do you expect to happen as a result of this?
    Secretary Lemnios. Representative Davis, that is the--the 
connection that we are building and strengthening with the 
small-business community is absolutely essential in driving 
innovative concepts from the private sector into the 
Department's key capabilities. It is absolutely essential. The 
timelines, industry gets it. The small-business communities are 
ways to drive new concepts that just simply won't arrive out of 
long-term procurements.
    This committee understands that. Congress passed the Rapid 
Innovation Fund, which we are acting on now. We issued four--
the Department issued four solicitations: one from each of the 
services and then one that is an OSD solicitation that includes 
the fourth estate, it includes SOCOM [U.S. Special Operations 
Command], the Small Business Innovative Research Program, I 
think DARPA was included in that one, and MDA [Missile Defense 
Agency].
    So that was a broad reach asking the small-business 
community to come back with two focused efforts. One were your 
ideas that would, within 2 years and within a $3 million cap, 
provide solutions for our joint urgent operational needs--that 
is, those solutions that could be immediately transitioned to 
the warfighter. And then second was those ideas that would have 
significant impact to our acquisition programs, that would tie 
directly to an acquisition program.
    We are still in source selection, but what I can tell you 
is that we received as a result of those four solicitations 
about 3,500 responses. I am the source selection authority for 
one of those four activities. The other services are working 
those through their channels.
    But we did two things. We presented to industry a clear 
articulation of those challenges in an unclassified environment 
that sort of made it clear in layman's terms. And we listened 
to industry to try to shape the responses so that, in fact, we 
are able to make those connections not just for this 
solicitation but for the follow-on activities.
    The way we will assess it will be not just is the money 
spent, did we actually get contracts on the record, but have we 
received the products as a result of that. You know, can I go 
to SOCOM, can I go to an operator and see the result of that 
small-business concept implemented in that operational 
capability--or to that acquisition program, that transition 
path.
    This is an experiment. We are in the first phase. We have 
been working lockstep with the Hill to make sure that we are 
implementing it as you have directed us to.
    Mrs. Davis. Is that $200 million going to enable you to do 
what you would like to do, in terms of really getting it----
    Secretary Lemnios. Well, it is actually twice that. It is 
actually $400 million or $500 million. So it is a large amount 
of money.
    Mrs. Davis. Oh, okay.
    Secretary Lemnios. But we want to make sure that the first 
set of solicitations are executed synchronously and that we see 
the results. So the results of this will be evaluated as we go 
forward.
    Mrs. Davis. Okay. Thank you. I appreciate that. If you come 
across a situation where perhaps our larger companies are 
looking at those, as well--and they certainly have that 
opportunity to do that. But I think when you talk about pushing 
things back to OSD, what worries me a little bit is that some 
of the larger companies that we have all been used to working 
with over the years, you know, sometimes ace out, quite 
honestly, some of the smaller companies that have the greatest 
opportunity for innovation.
    Secretary Lemnios. I will just say as a follow-up, the 
large companies are watching carefully who is responding, and I 
think there will be connections made. My sense is that, as we 
move forward, I think we will see a change in the way that 
works.
    Mrs. Davis. Great. Okay. Thank you very much. I appreciate 
that.
    If I could very quickly, Dr. Gabriel, how are you 
connecting with so much of the research on PTSD [post-traumatic 
stress disorder] that is ongoing through the veterans community 
and, certainly, our universities and other research entities?
    Dr. Gabriel. Well, ma'am, it also is going to be responsive 
to your previous question about small business. Because, in my 
oral testimony, I mentioned the wristwatch-sized Blast Gauge 
device. This was a device that was designed, developed, and 
produced by a small business, actually, less than a year, less 
than a million dollars, and informed by the fundamental 
neuroscience work that has gone on in a previous program at 
DARPA to understand the correlation between blast exposure, in 
particular overpressure, and to PTSD and TBI.
    The program, in partnership with the Army, we fielded an 
entire Second Brigade, Fourth Infantry Division throughout 
their entire deployment last year, from August to actually just 
a little bit--a few weeks ago. The entire brigade had--every 
warfighter had three of these. I would be happy to pass it 
around. These are the Blast Gauges. This was developed, four 
iterations, very quickly, with the speed and capability of the 
small business to deliver those products.
    It started out at $85 a unit, which for the full deployment 
was $1.6 million. And now, because of the innovation and speed 
of execution of the small company and the learnings they got 
from the manufacturing, they are able to do an entire brigade 
for $540,000.
    So I think it is vital to pull small businesses in, not 
just through SBIR [Small Business Innovation Research] programs 
but actually to couple them to the core programs of each of the 
agencies.
    Mr. Thornberry. Mr. West.
    Mr. West. Thank you, Mr. Chairman and Ranking Member.
    And thanks to the panel for being here. And it was good 
seeing you down at the AUSA [Association of the United States 
Army] Winter Symposium.
    One of the things I believe, our best military technology 
is our human technology, and I think our smartest weapon that 
we have are the men and women in uniform. And, of course, with 
that being said, when you look at the budget cuts that we are 
going to have, when you look at about 129,000 of our men and 
women in uniform we are going to send away, my first question 
is, what are we doing from a science and technology perspective 
to fill that gap that we are going to be losing, with those men 
and women, for us to still be able to be successful on the 
battlefield? That is my first question.
    And then the second question is, you know, what are the key 
and critical programs, the top one or two programs that each 
and every one of you are looking at? But then also going back 
to what we talked about a little earlier, how are we looking to 
develop common operating platforms?
    You know, when I was at the AUSA Winter Symposium, I saw 
the unmanned ground vehicles. I know we have unmanned aerial 
vehicles. I know we are working to unman sea vehicles. How do 
we get all of these unmanned systems on the same operating 
platform so we don't create such an incredible burden in the 
research and development systems and also in the logistical 
supply systems?
    So those are my two questions.
    Secretary Lemnios. Representative West, let me start from a 
Department perspective. Absolutely, it is the case that when I 
visit men and women in uniform in the field, it is the 
warfighter that makes the difference. I was at Camp Roberts 6 
months ago, and, you know, I saw training books, I saw training 
manuals, but I saw the real work being done by soldiers that 
were able to innovate concepts that were never part of any 
training manual, but they just knew how to make things happen. 
And that is absolutely critical.
    On the way we leverage--the way we use science and 
technology to leverage the effectiveness of the warfighter, 
there are two specific examples that I will give. The other 
panelists may have others.
    The first is, in theater, clearly, one of the bottlenecks, 
manpower bottlenecks, is in the processing, exploitation, and 
dissemination cells that are taking enormous data feeds and 
translating them to operational decisions. And if you visit--
and you were--you understand this well. It is an environment 
where tempo matters, where consequence of error is enormous, 
where the data is ambiguous. In some cases, it is missing; in 
some cases, it is just plain wrong and you have to sort of go 
through this. And we have programs across the Department that 
are looking at ways to integrate those data fields in ways that 
provide much better fidelity, much better responsiveness.
    In the area of common operating picture, we have a major 
initiative with the Pacific Command that we call Cloud Break. 
It is an environment where we are, in fact, building across the 
Department an integration environment for a common operating 
picture. It is a testbed that allows small businesses and 
others to come in, put their algorithms in a joint information 
operations center where the combatant command actually gets the 
residual benefit of those efforts, and we get to see how these 
things trade one against another.
    I think, at the end of the day, S&T in many of these areas 
has the opportunity--and we have seen it--to drive the 
effectiveness of the warfighter by reducing the burden, the 
work burden, and improving fidelity of the operational picture. 
Giving the community access to training environments is one way 
to do that.
    Mr. West. Thanks.
    Dr. Freeman. Yeah, let me make a couple of comments.
    You know, the first thing is, the operational capability of 
unmanned systems is one of the things that we really want to 
capitalize. We have seen a lot, and particularly, you know, in 
the UAVs, big proliferation of UAVs, big utility, big payoff 
for everybody on using those systems at all the different 
echelons.
    But one of the things we have in the Army is that, as I 
mentioned in my testimony, the issue that if you indeed are 
going to supplement and/or assist soldiers, small units, you 
know, warfighters, then there has to be an issue, particularly 
when there are things on the ground and you are operating 
together in relatively close proximity or you are counting on 
those systems to be there and not to break down and to do the 
things you want, that is where the technology really needs to 
go--the trust in those systems.
    And we need to be able to demonstrate to our soldiers, to 
our warfighters, that particularly on the more complex things--
I mean, flying in the air is great and it is very complex, but 
on the other hand there is not a lot of proximity there, as you 
have on ground systems.
    So working these issues of how, if we are going to 
supplement and/or help with reduced numbers of people, how we 
are going to do that, we have to work technology-wise on 
developing the systems that people can trust. That really, 
really is important.
    Mr. West. Okay.
    Admiral Klunder. Yes, sir, thank you. And before I forget, 
you asked about top priorities, and I do want to emphasize--and 
we will get a chance to talk about cybersecurity later, and 
that is absolutely one of ours, both on the defensive and 
offensive side, as my DARPA colleague alluded.
    But, certainly, the value of our people in the Navy and 
Marine Corps, that is without question. And where we think we 
may be able to leverage, again, technology, science--and this 
is both manned and unmanned streams. If we are going to have 
this huge amount of data that Mr. Lemnios described, we feel 
there that automation--but not just automation, the algorithms 
that we need to be able to do, with onboard processing that now 
allows not that 100 percent of throughput to go down to our 
limited manpower and pool of heroes, but now maybe it is really 
that 10 percent of vital critical information we need to throw 
down through the pipes. I would just offer, that is an area 
that we think we may be able to solve some of those manpower 
and personnel issues on shortages.
    Certainly, in terms of an area that we think is very 
important--I think I am back to a point we talked about in 
being responsive to not only our COCOM [combatant command] and 
our fleet and force requirements, warfighter requirements, but 
just, frankly, our national security requirements. And that is, 
when we look at something, for instance, over in 5th Fleet, a 
year ago we may not have had as robust a mine warfare 
capability that we thought we needed with the current scenarios 
that we are being faced with. Today, I can tell you, due to 
responsive technology on some unmanned vehicles and the sensors 
that those carried, we think we now can confront the threat in 
a positive manner.
    And I would like to offer that that was maybe a success 
that we saw within a year time frame where we broke through 
some barriers that you might normally see.
    Mr. West. Yes, sir. Thanks.
    Dr. Walker. One of the areas I didn't mention where we have 
increased investment is autonomy. And we are actually leading 
that area for Mr. Lemnios as one of his seven priority areas.
    Trust, you know, how do we trust these systems is 
critically important. Human machine interface is another area 
that we are working pretty hard to--or to, you know, lower the 
number of humans involved in that piece. And then the human 
performance piece, trying to do more data fusion, turning the 
data into knowledge so that we can have less folks sitting back 
looking at the data and interpreting it.
    So those are the key areas we are trying to maintain and, 
actually, increase investment.
    Dr. Gabriel. So, sir, we believe data is a force 
multiplier. The challenge is to turn that data into actionable 
information.
    And we are looking at that in two major ways. One is, we 
have looked across our ISR portfolio and shifted from about 70 
percent sensor investment, 30 percent exploitation to more of a 
50-50, more in the exploitation to turn that data into 
information. And also beginning to look at activities in big 
data, where there are emerging concepts, algorithms, and ideas 
coming from basic mathematics of how do you deal with lots and 
lots of data from big data.
    Mr. West. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Thornberry. Mr. Shuster.
    Mr. Shuster. Thank you very much, Mr. Chairman.
    Thank all of you for being here today.
    I want to go back to the Rapid Innovation Fund briefly. I 
know Mr. Lemnios spoke about it, but I wonder if the other four 
panelists might briefly comment on the value you are seeing, if 
any at all, going through the process in terms of technology 
and the acquisition process.
    So if you could just----
    Dr. Freeman. Yeah, let me start, and then my colleagues can 
add.
    You know, we in the Army use this Rapid Innovation Fund, 
and we focused our BAA [Broad Agency Announcement] on the top 
10 challenges that I identified that were our warfighter 
challenges that we were looking to be able to solve. And we got 
a tremendous response back from small businesses and very 
nontraditional folks who wouldn't necessarily have responded to 
some of our other things. And we are really happy to do that.
    One of the things we did is we evaluated all of the over 
1,000 proposals that we got. I had a number of people in both 
the laboratories and then the people who were going to be 
running these what we call TECD [Technology Enabled 
Capabilities Demonstration] programs that focus on these 
challenges actually doing the evaluations. And, therefore, 
those technical program managers got to actually look through 
all of these ideas and these innovative thoughts and saw things 
that they would never, ever see before.
    And so we really appreciate the opportunity to do this and 
then to link these up so that they get brought into our Army 
programs as integral parts of them, not as something separate, 
not as something, you know, totally different, but something 
that we are integrating and bringing those into our programs.
    In addition, I have taken the list of innovations and the 
things that we got, responses we got back, and I am also 
looking at them for a second scrub to see if there are things 
in there that we may not be able to take directly to one of 
these TECDs because it was a little bit out of the timeline or 
not quite focused enough but are really good ideas and seeing 
if there are things that we should fund out of that out of our 
core program, as well.
    So I really think this has been a big boon for the Army.
    Mr. Shuster. Thank you.
    And the rest of you have seen that kind of----
    Admiral Klunder. Absolutely. And I won't duplicate the 
small-business side, but that is truly one of the core pieces 
of our RIF [Rapid Innovation Fund].
    One offer is that, within that Rapid Innovation Fund, we 
have taken what we call our ``tech solutions.'' That is where, 
within a year, we want to have--if a sailor or Marine has come 
to us and said, this is really a detriment to my performing my 
job out in the fleet or the force, can we turn that kind of 
innovation within a year? And that is where we have seen some 
real successes here.
    It could be in things that we do even as simple as 
training, virtual training, that we want to get that quickly to 
a fleet sailor or Marine. Something also that we have seen 
innovative, in terms of a counter-piracy mission, for instance. 
We had young officers on a ship, going, ``How am I going to 
interact?'' Well, we have done that--again, within less than a 
year, we have been able to adapt that training through this 
kind of model, put it out to the Surface Warfare Officer's 
School, and now they are able to understand that scenario much 
better.
    Mr. Shuster. Okay.
    Dr. Walker. In our BAA, we put high importance on 
transition to programs of record. So we--actually, the product 
centers and the Air Logistics Centers are actually running the 
review process. So we are making sure that--and the small 
companies are finding that refreshing, because they actually 
have an opportunity to get into a program of record. So we are 
very positive on the program.
    Mr. Shuster. Great.
    Dr. Gabriel. Sir, we have Rapid Innovation, in some sense, 
spread out throughout our programs. I talked to you about some 
of the activities going on with the Blast Gauge. That came from 
a small business. That was part of the core program that we 
had.
    Mr. Shuster. Thank you.
    And if I might, I know that as we went through the last 
authorization there was some concern about the process going 
through, was it fair and open competition.
    I wonder, Mr. Lemnios, if you could comment on that.
    Secretary Lemnios. Well, it is a fair and open competition. 
It was an open solicitation. The reason we rate it as a pilot--
and we did this in concert with discussions that we have had 
with leadership here--is to make sure that, in fact, the effect 
that we put in the solicitation is the effect that we will see 
as a result of those contracts.
    We have two very measurable effects here. One is, did the 
product of that contract actually end up in a warfighter's 
hands in 24 months, or did the product of that effort actually 
end up in an acquisition program in 24 months?
    I think what we have done here--let me just take a minute--
I think what we have done here is, we are opening a new 
dialogue with the private sector exactly along those lines of 
driving innovation in the small business and larger community. 
Our defensetechnologymarketplace.mil was put online to show the 
small-business community and the industrial base where our 
focus is. And we have asked for their feedback on where their 
IRAD [internal research and development] is. And so we are 
trying to build that engagement to drive innovation.
    Mr. Shuster. Well, thank you. I think that helps us when we 
go through the next reauthorization. Because, again, I know on 
the other side of the Capitol there were some concerns about 
the open, fair process, so I appreciate your comments on that.
    And thank you. I yield back.
    Mr. Thornberry. Thank you. And I appreciate the work of the 
gentleman on his panel related to this very area. Thank you.
    Mr. Gibson.
    Mr. Gibson. Well, thanks, Mr. Chairman.
    I appreciate the panelists being here today.
    Dr. Gabriel, with regard to the Focus Center Research 
Program, from my looking at it, it appears to be a pretty 
effective public-private partnership, particularly your work 
with the Semiconductor Research Corporation, $13 million 
invested and $18 million from the private side.
    But I am curious to know your assessment and then, beyond 
that, what your vision is, looking at this budget, what 
priorities you have given for that.
    Thanks.
    Dr. Gabriel. So, sir, thank you. You are absolutely right. 
I think, from our perspective, this is an area that we see as 
beneficial in a number of ways.
    One, as you pointed out, every dollar of Federal funding is 
matched by a factor of one and a half to one. So for every 
dollar we put in, the industry consortium puts in one and a 
half dollars.
    It does a number of things. It advances the semiconductor 
technology in ways that are beneficial to the industry at 
large. It has structured IP [intellectual property] 
relationships with universities that are beneficial to the 
university as well as industry. And it has been a tremendous 
accelerator of training and education for the next generation 
of scientists and engineers in the semiconductor industry.
    Mr. Gibson. And looking forward, priorities? Guidance? 
Anything that we should be looking for in the coming year and 
beyond?
    Dr. Gabriel. The industry representatives, the governing 
council that represents the industry members, they are in the 
midst of putting together their recommendations for how they 
would like to see the program evolve in the next phase, or in 
the next 3 years, if you will, of their anticipation.
    And we will be having discussions with them over the next 
few months. We expect them to be articulating the type of 
technology areas they want to focus on as well as some of the 
activities and structures of the sorts of research they would 
like to support.
    Mr. Gibson. Well, very well. And I look forward to 
monitoring that. And I am certainly very proud of the work that 
our area is doing on this score. And I want to thank all the 
panelists again.
    I yield back, Mr. Chairman.
    Mr. Thornberry. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    I know the other committee members have sort of borne in 
the heat of the day here and I showed up at the last minute. I 
don't know if you can believe this, there is actually--I had a 
conflict. I haven't learned to bi-locate yet. And it never 
happens to me, but this time it did.
    Thank you all for being here. Thank you for being sort of 
that invisible front line of freedom for all of us. We know 
that the work that you do in the technology advances and 
scientific advances are absolutely vital to the cause of 
freedom, and we are grateful.
    I am going to do something I usually don't do. I am going 
to kind of let whichever one of you think would be the best one 
to respond to this question. And it is a question; it is not a 
leading narrative here. I want to genuinely know your 
perspective.
    Reports show that domestic military installations receive 
99 percent of their electricity from the civilian power grid. 
Furthermore, numerous studies have concluded that our civilian 
power grid could be critically vulnerable to both manmade and 
naturally occurring electromagnetic pulse, in this case either 
EMP [electromagnetic pulse] or GMD [Geospace Magnetospheric 
Dynamics].
    One of your roles is to develop technology enhancements and 
processes to rapidly transition critical technologies to our 
national security force.
    First, let me just ask the obvious question. Do you assess 
the civilian power grid to be vulnerable to both natural and 
manmade EMP? Does anyone assess it that way?
    Dr. Freeman. I am going to take a little bit of a stab.
    A number of years ago, I was on a defense board where we 
were looking at those things, and I interacted a lot with our 
Defense Science Board and those folks. And, you know, the 
answer to that question from the perspective of a lot of 
different folks was, yeah, we have issues there, and we have to 
look at those, and we seriously have to understand that.
    In the Army, in particular, because we do have an awful lot 
of installations, we have an awful lot of bases that we look 
at, I work very closely and the folks in my office, and across 
the laboratory system in the Army, work very closely with the 
installations folks as we assess what our vulnerabilities are 
to power and energy issues. And one of the things that we are 
trying to do is actually set up the ability for our various 
bases and our various installations to be more energy self-
sufficient, more energy-secure, and to have the ability not 
only to be more efficient and effective but also to be safe and 
not vulnerable.
    It is a part of what we are actually looking at. And the 
science and technology community has a part to play there, and 
we are, in the Army at least, playing that part.
    Mr. Franks. Well, that is a good answer. I have worked with 
some of the bases in our own state to that end, to that exact 
end.
    Are you aware of some of the technologies that may be 
available today to mitigate the threat against the civilian 
grid? Has anybody--please.
    Secretary Lemnios. So we have certainly looked at the risk 
assessment and the threat assessments, but they really are 
base-specific. There is a set of core technologies that need to 
be layered, and the threats need to be identified by a 
geographic area. And I am happy to sit down with you under a 
different environment and have that discussion.
    Mr. Franks. Well, there was some technology that I learned 
about here recently, because this has been something that has 
been a concern of ours on the Armed Services Committee since we 
heard the EMP Commission report some years ago. And the neutral 
phase blockers ought to be something to be considered, because 
the cost is minimal, it allows the grid to run at a higher 
efficiency, it pays for itself. It is an incredible thing to 
look at.
    So if you consider this a threat, is there a timeline 
available that portrays when the civilian power grid could, in 
your mind, be adequately protected against EMP? Or how serious 
is the situation now, and when do you think--what is being done 
to protect it, and when do you think you might have it where we 
would have some level of confidence?
    Secretary Lemnios. Representative, I am not--I don't think 
any of us are prepared today to give you a calendar date as to 
when that is going to occur or what those risks are.
    I will simply tell you, as I have looked at risk 
assessments, not only in that domain but others, there are very 
few silver bullets that allow you to sort of take the risk from 
a very high level to a low level.
    What we do in most cases--in fact, in all of the ones that 
I have been involved in--is pull a red team together to do not 
only a threat assessment, but how would you, in fact, 
compromise a particular target. I will give you specific 
example. In cyber, a lot of the DARPA work is informed by red 
teams that actually look at measures and countermeasures. Our 
electronic warfare strategy is informed by red-team, blue-team 
assessments.
    And so, on this particular one, I have taken a note, and I 
am happy to come back and chat with you.
    Mr. Franks. I appreciate that.
    Mr. Chairman, I will yield back here, just with the thought 
that, if this is as serious as some of these reports that we 
are getting indicate, then it seems to me it is something that 
we should all understand really where we are on it and what our 
plan is.
    Thank you.
    Mr. Thornberry. I thank the gentleman.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    If I could, Secretary Lemnios, the Weapons Systems 
Acquisition Reform Act of 2009 basically created two new 
offices charged with improving key areas of our acquisition 
process: the Director for Developmental Test and Director for 
Systems Engineering.
    So, Secretary, I believe that both of these offices report 
to you. Almost 3 years later, what impact are those offices 
making? And are they helping, or did they just create another 
layer of useless bureaucracy?
    Secretary Lemnios. Representative Langevin, those offices 
were created--were passed unanimously by both the House and the 
Senate, signed by the President earlier in 2009.
    We stood up the offices to do two things: to, first, reduce 
the risk of operational testing, to really identify those 
operational issues well ahead of the final acceptance of weapon 
systems and also, much earlier in the process, pre-Milestone B, 
well ahead of the final acquisition, to really understand the 
system risk of both the technology and the architectures that 
are used in our systems.
    We have a very comprehensive report that is coming to the 
Hill that outlines all of that. Our annual report is actually--
I think it is due in a few weeks, and you will see the 
compilation of that.
    But the end result of all this is that those two offices 
are engaged in every Defense Acquisition Board. They are asking 
the hard questions. They are asking the program managers to 
come back with evidence that we understand the risk, we 
understand the cost structure, we understand the time latency 
of our programs. And you will see that in the annual report.
    Mr. Langevin. Very good. I look forward to reading that 
report.
    Admiral, if I could turn to you. Admiral, how do you plan 
on continuing to execute both the Solid State and the Free 
Electron Laser development programs? And where are your current 
challenges in those programs?
    Admiral Klunder. Thank you, sir. It is nice that we are all 
here together today.
    Certainly, on Solid State Laser, I will describe that 
first. Working with my colleagues across the services and with 
DARPA, we truly feel that in the last few years that technology 
has become much more mature, something that is achievable in 
terms of helping our warfighters out in the field.
    I do want to offer that, from a Naval standpoint, there are 
obvious challenges to us in the maritime domain that affect 
things like lasers. Being able to have a beam director that can 
really focus down through the maritime kind of environment and 
atmosphere is a challenge. But we are looking at it, and we are 
teaming with my colleagues here across the table.
    I do offer to you that, on the Free Electron Laser, we 
still see huge value in that. But we are also realistic, and 
working with your staff also, to realize that some of the 
technologies there still have a ways to go, frankly. There are 
some things on injector technology, some of the high-capacitor 
technology that we know are not in that, kind of, 2-year arm. 
It is more like maybe out here in a 10-year arm, potentially, 
that we are looking at.
    I do want to also offer that, in terms of integration to a 
Navy or Marine Corps kind of asset, that we also have to look 
at certainly the footprint aspects to a Free Electron Laser. 
And that is another challenge that we are looking at, sir.
    Mr. Langevin. Thank you.
    If we could go back to the issue of cyber. And to the 
panel, what do we need to change to ensure that we are better 
able to identify and mitigate risks in cyber domain? I know I 
asked that question earlier and time ran out, but I would like 
to come back to that and ask the panel to comment.
    Secretary Lemnios. Representative Langevin, let me start.
    Again, the cyber S&T area was one of our priorities, and it 
is one that we will be building for many years. This area 
actually very closely follows the work that we have seen and 
developed in electronic warfare. There are measures, and there 
are countermeasures. In the electronic warfare domain, those 
measures and countermeasures are measured in terms of maybe 
days, maybe weeks, maybe months. In cyber, they are measured in 
terms of minutes and hours.
    So there is a challenge of both understanding the cyber 
threat and responding to it quickly, and building tools that 
allow us to both defend and operate in an environment that is 
greatly changing.
    The focus of the Department's effort this year has been in 
building a common operating picture so that we understand those 
networks and we start building the measurements and the test 
campaign to understand, in fact, how we can use our S&T efforts 
and transition them.
    Going forward, I suspect that you will see in the coming 
years ways to integrate a larger number of efforts across our 
networks. And that is going on right now in the services and 
certainly at DARPA, in terms of new concepts that are being 
developed.
    We have brought the Department together. The Department 
spend in cyber across the budget is about $3.4 billion. In the 
S&T area, it is between $600 million and $800 million a year. 
It is one of our focused efforts. It is one that has received a 
lot of attention. In fact, we plussed that up from last year in 
order to drive innovation into this area.
    Mr. Langevin. Thank you, Secretary.
    Others on the panel?
    Dr. Walker. Sure.
    We are in the midst, in the Air Force, of a study, Cyber 
Vision 2025, led by our Air Force chief scientist, Dr. Maybury. 
I am his mission support lead, which essentially means trying 
to take a look at how we do responsive cyber acquisition.
    But what you hit on earlier is, how do we develop the next 
cyber warriors, so to speak, because I think the people element 
to cyber is just as important as some of the other stuff. And 
one of the things we are finding is--or one of the things we 
are looking at is, how can we work with our undergraduate 
institutions--the Air Force Academy, for sure, but even 
civilian undergraduate institutions--to get more of a cyber 
element into the computer science and computer engineering 
curriculum? We have been working with Syracuse University--our 
Rome Laboratory has been working with Syracuse University to do 
just that over the last year. And we are working with a couple 
other universities, but trying to get a more technical, cyber-
oriented curriculum.
    Working with some of our civilian institutions I think is 
going to be important to produce people that can think cyber 
and come into the services and help us.
    Admiral Klunder. Sir, to kind of trump Steve's comments 
just a second ago about the young people, I offer to you that 
we feel--as we have teamed up on the STEM effort that 
Representative Kline alluded to, we absolutely are committed to 
that kind of focus area also within our STEM training.
    I would use as an example my sophomore in college, my son. 
And I talked to him, I said, what are you going to take for an 
elective this year, son, in this semester? And he said, well, 
you know, Dad, there is this fantastic cyber expert that is 
coming in for one semester. And I know that is a selfish plug 
at the Naval Academy, but that is exactly what we have tried to 
do--bring in experts from the field. Because, as I mentioned 
before, sir, cyber isn't a traditional kind of warfare domain 
that you can take 10 years for an acquisition program to 
address. Those technologies flip every year, every 2 years.
    And if we can't stay responsive, not only with our training 
of the people but also with our urgent operational fulfillment 
of those warfighter needs--and that is the other aspect quickly 
I would offer: that we have found great benefit, not only 
working with my colleagues across the table but at the other 
agencies in this town, in connecting right up front, 
collaboratively. If there is a warfighter, a COCOM urgent 
operational need, a JUON [joint urgent operational need], that 
we need to address now for national security reasons, frankly, 
we have been able to team quickly and kind of break down some 
of those more traditional acquisition barriers and move in more 
of a responsive, get-it-out-there kind of need.
    And I think we have been successful. We know there are 
always challenges. I am not trying to say we are always looking 
in front of the target. But we think that is a way we can 
address that in a little more responsive way, sir.
    Mr. Langevin. And that applies to the people, too? You are 
making an effort to identify those people that may not be 
necessarily assigned to the cyber domain, that field and that 
is their, you know, their day job, but something that they have 
skills and that could be utilized?
    Admiral Klunder. Absolutely. And we don't always 
necessarily have to look for a person that is in a computer 
science major, necessarily. We want to keep their depth of 
knowledge through electives, through any kind of acclimation 
through the cyber domain because we think--frankly, you might 
even eventually have a political science major that might want 
to get some kind of cyber expertise, and we could bring them 
into this kind of a future career path.
    Mr. Langevin. Thank you.
    Dr. Freeman. And let me just take a little slightly 
different slant. And it kind of goes back to something Ken 
said.
    You know, we recognize, certainly, that we have a need to 
protect our networks but also our data and our equipment from 
this ubiquitous threat. And, you know, that is something that--
it isn't just about computers by themselves. It is by, you 
know, all the things that we have.
    And I came out of the nuclear community, you know, many, 
many, many, many years ago. And one of the things that I did as 
a young scientist or engineer is I was taught that the first 
thing that you do if you are a designer is that you design 
something in your mind and then you have people who try to 
attack it and then you have people who try to solve that as a 
designer, so that you build in the resilience and you build 
into your design the ability to make it hard for those people 
who want to get into the systems to actually do that harm.
    And so one of the things, in addition to all the things 
that everybody else has said, is we have to train our 
scientists and engineers--not just our computer scientists and 
engineers, but all of our design folks to wear what we used to 
call the black hat, the white hat, and the gray hat, to go 
figure out how to do better designs of systems and to think 
through not just designing for success in performing something 
but also thinking about how it might be attacked. And that 
includes protecting the data, protecting the equipment, knowing 
where things are. I mean, all of that stuff is going to be 
really important. And I really feel very strongly that we need 
to get our scientists and engineers across the board interested 
in that.
    Mr. Langevin. Yeah. I agree. The Internet, when it was 
built, was never built with security in mind, and I guess 
unfortunately. But we are trying to retrofit now, as we do it. 
But if we can think as we are designing new systems, ahead of 
time thinking about security, I think we will be better off for 
it.
    With that----
    Mr. Thornberry. Will the gentleman yield?
    Mr. Langevin. I am----
    Mr. Thornberry. Well, I just wanted to follow up. I hate to 
break this to you. We are actually going to have to start 
training the lawyers to understand some of this stuff. And I 
think the point you all are making is one that I have come to 
understand as we deal with this issue. It is not enough for 
just computer science people to understand it. We are going to 
have to have, you know, ``Cyber for Dummies,'' because it will 
permeate everything that we deal with.
    And, you know, this is not really you all's issue, but I do 
think we have some responsibility to push that. You are on to 
something, I think, that is exactly right.
    I didn't mean to----
    Mr. Langevin. No, I thank you, Chairman, and I agree with 
your comments. And, with that, I yield back.
    Mr. Thornberry. Thank you.
    Secretary Lemnios. Mr. Chairman, if I might just add one 
point? You are spot on, that it actually is part of our 
responsibility to broaden that tech base.
    To connect the dots, and sort of one last point in the 
sentence, and that is, we have an opportunity to train new 
students through our STEM initiatives. This summer, we have 670 
students that we are sponsoring through our SMART [Science, 
Mathematics and Research for Transformation] Program that will 
be placed in our Department's laboratories. So that is a 
shaping function. Those students are being selected. In fact, 
we have 2,800 applicants for the next round of admission into 
that program. It is a year of--it is a year of service for 
every year of college tuition that we provide. And we can 
actually shape, and we have shaped, the posture of that class 
that we accept into technical fields, which might include 
cybersecurity, might include cyber policy, certainly includes 
advanced technology in those areas that we see are the growing 
ones for the Department. And that is our feedstock.
    And so this STEM future-needs-of-the-Department shaping 
function actually does close and we have a way to do it. You 
have given us the authorities to do this. The 219 authorities 
allow us to extend that, and we are certainly working across 
the laboratories with those authorities. And we are working to 
make those connections.
    Mr. Thornberry. Mr. Secretary, while we are on the subject 
of cyber, let me ask the annual ``how do you deconflict'' 
question. Because any time there is something that is the hot 
issue, all sorts of stuff gets that label. Yeah, we have all 
sorts of things that are being labeled with ``cyber'' these 
days, not just in S&T, obviously, but throughout the 
Department.
    So reassure us that you are looking at all of these cyber 
initiatives across the services, across the different DOD 
agencies of various kinds, and that there is some method to 
this madness.
    Secretary Lemnios. So, Representative Thornberry, the 
Senate 933 report, which we are finishing up, outlines the 
Department's strategy for cyber integration. It includes the 
Cyber Integration Management Board. That is sort of the policy 
piece within the Department to do exactly as you are asking--as 
you are suggesting.
    But I will also tell you that, as part of the review that I 
conducted last fall with a small team, you know, I went and I 
visited the laboratories, I talked to the researchers, spent 
time at DARPA, spent time at each of the services. One thing 
that impressed me, we have a remarkable set of talent. We have 
a good set of programs. They are a balanced set of programs, 
everything from those things that might make you a little itchy 
to those things that are going to be operationally relevant in 
short order because they are being built with deliberate 
timelines. And we have to have that balance, we have to have 
flexibility.
    The integration effort across the Department will be 
through the Cyber Integration Management Board that the 
Department is standing up to do exactly as you are suggesting.
    Mr. Thornberry. Let me shift topics for just a second. 
Another area that this subcommittee has been particularly 
interested in, kind of related to our other responsibilities, 
is irregular warfare. The country has learned a lot, sometimes 
painfully, over the last 10 years about irregular warfare. 
Obviously, it goes back much further than that.
    But I am just curious. There is some feeling that, as 
things wind down in Afghanistan, there will be a temptation to 
move on to other kinds of fights. And from an S&T perspective, 
is there anything that just pops into your brain that is going 
on in your fields that would be related to irregular warfare to 
help make sure that we don't have to relearn lessons again 
someday in the future that have been bought at a pretty high 
price over the last 10 years?
    Secretary Lemnios. Representative Thornberry, I am going to 
go back to some comments that Ken Gabriel made regarding the 
cost point for electronic warfare. And, in many ways, I look at 
that as an analogy to--a real analogy to irregular warfare in a 
different domain.
    Mr. Thornberry. Yeah.
    Secretary Lemnios. So while we are certainly drawing down 
overseas contingency operations and we will be moving that to a 
different point, the urgency--irregular warfare is really about 
urgency and it is about rapid transition. Through the last 10 
years of war, the Department has put in place a fast lane to 
get concepts quickly to theater. We have demonstrated that with 
MRAPs [Mine-Resistant Ambush-Protected vehicles] and body armor 
and other systems that are being fielded on timelines that are 
unimaginable to the standard acquisition process, that have 
been remarkably effective, that save lives every day.
    The question then becomes, what does that actually look 
like in a theater where the technology tempo is changing month 
to month? And that is actually what is driving our connection 
with the communities that we are trying to build these channels 
with--with innovative small-business communities, with 
technology transition concepts. A real push in cyber to build 
app store models for the way we operate systems that sort of 
mimic what we are seeing in the private sector, where you can 
go to any company and buy your next product in a year's time 
and you know that you have doubled the capacity of that product 
on the same cost point.
    So I think what you will see is irregular warfare is really 
a moniker for rapid fielding of new technologies. And everyone 
here is on that--you know, we are all on that. You know, we are 
pushing in the S&T area, as I mentioned, the ones that are 
service-specific, the ones that are crosscuts, and really 
trying to drive new models with the private sector.
    Dr. Freeman. If I can kind of go back, if you look at the 
24 challenges that we have laid out in the Army as saying that 
they are our highest S&T priorities that we are looking at, and 
they are all focused on the soldier and the small unit and all 
of the things that they have had to do but we also believe they 
are going to continue to have to do around the world, 
regardless of where we are.
    I think we actually kind of get at, at least on the Army 
side particularly, by focusing on those things, you know, for a 
major portion of our program, not losing those lessons learned. 
We will still have COPs [command observation posts] and FOBs 
[forward operating bases]. We will still have the issues of 
getting technology out to far distant people and people who are 
doing all of those different kinds of jobs that are going to 
continue. Whether you are in the Asia Pacific or whether you 
are doing anything else, we know that that is going to be 
there. And I think what we are doing is trying to focus at the 
tip of the spear. I think that will help.
    Mr. Thornberry. That is a good point. We don't know where 
we will be, but we most likely will be someplace remote, and 
that is a whole set of challenges.
    Admiral Klunder. Chairman Thornberry, this is a selfish 
plug for my colleague behind me in the Marine Corps, but I need 
to give him a quick shout-out. Our whole S&T strategic plan was 
catered and focused to that anti-access/area-denial, which, 
again, needs be forward presence and be a 9-1-1 kind of 
response and mentality. So that is something we are going to 
continue to do for the absolute foreseeable future.
    One area, though, I will offer that we probably don't think 
about as much when we think about expeditionary irregular 
warfare, and it is back to that kind of information piece that 
we have talked to a little bit, not only just cyber, but I am 
talking about the agility to do that. And that is something we 
are looking at. It is not about residing in spectrums that only 
our threats know about and are very comfortable in. It is about 
looking at ways to be agile around those spectrums; that, 
again, we can still be irregular and expeditionary, that they 
can actually track us in those very defined spectrums that we 
are all used to playing in, if that made sense, and from an 
information dominance cyber standpoint, sir.
    Mr. Thornberry. Thank you.
    Dr. Walker. And we in the Air Force over the last 10 years 
have gotten really good at unmanned ISR but in environments 
where we control the air. And so, as we move into A2/AD and 
nonpermissive environments, how do we do that mission and how 
do those systems interact with our manned platforms is an area 
we are taking a hard look at.
    Also, how we work with the Navy in an AirSea Battle 
construct. And it is not really irregular war, but it is a new 
concept that we are fleshing out. And, you know, one of the key 
technology areas there is electronic warfare, as has been 
mentioned. So how do we do more together in that space, as well 
as cyber, for that type of scenario.
    Dr. Gabriel. So, sir, I would take it back and say that 
irregular warfare is really about adaptability and your speed 
of response. And that is the focus, as you have heard us talk 
about our Advanced Manufacturing Initiative--everything from 
ground combat vehicles to optical systems and reducing the time 
that it takes for us to design, develop, and test and field 
those sort of systems.
    One additional layering that I would add in terms of what 
we have learned most recently over the past few years are from 
some of the activities that we had in theater--TFJ Dot [Task 
Force Joint DARPA Operational Trials], which we have described 
to you, everything from LIDAR [Laser Identification, Detection, 
and Ranging] to the Blast Gauges I talked about earlier. Those 
came about not only with a focus on time but a very tight 
coupling and integration of both the S&T folks as well as the 
operators, side-by-side, so that the development cycle times 
weren't lengthened by the back and forth ping-ponging but, 
rather, the fact that they were sitting right next to each 
other and quickly converging and iterating on a much better 
solution.
    Mr. Thornberry. Mr. Secretary--I think it was you--you 
caught my attention with your comments about globalization of 
technology. Earlier this week, I was out in California at a 
cyber conference. And you walk around the floor, you see all 
these small businesses that, you know, just have, you know, it 
looks to me, pretty amazing stuff.
    So I guess my question is, how--and it is really for any of 
you, I guess. But how do you, number one, know what is 
happening in technology in the world, particularly when so much 
occurs with small businesses that don't have the regular 
interaction with you?
    And, secondly, somebody, one of the companies I met with, 
proudly told me their R&D budget was more than double DARPA's 
whole budget. You know, they seemed very proud of that. But 
part of the question is, how do you all leverage what the 
companies are doing? And, I mean, so you have the small 
businesses, you have big companies with massive budgets of R&D. 
How does all of that fit together as you all are moving ahead?
    Secretary Lemnios. Well, first of all, money is not 
everything, but it does help. The global R&D budget, globally, 
is about $1.2 trillion. About a third of that is in Asia, about 
a third of that is in this country, and about a third of that 
is rest of world. But, round numbers, about $400 billion that 
U.S. companies spend in research and development.
    Our budget request of $12 billion is focused on those 
particular areas where the Department either will drive new 
areas that we need to open or will sustain competence and 
leadership in areas that we, in fact, depend upon.
    And as far as how do we find those ideas, you know, if you 
are an agency director and you have a budget, they sort of find 
you. I can't tell you how many proposals I get each week. I am 
not an agency director, but they seem to find me. And I 
encourage that. You know, we look for ideas that don't come 
from traditional sources. We have open solicitations.
    We try to build a much stronger connection with industry. I 
mentioned the Defense Innovation Marketplace is one way to 
drive that discussion. We are building a very strong connection 
with industry's IRAD. What I actually want to do is help 
industry understand the Department's future needs so that they 
can shape their investments. You know, it is sort of like, 
let's partner on this and be smart about it. Industry is asking 
for that. The Rapid Innovation Fund is a piece of that. It is 
not all IRAD-centered, but it certainly leverages that.
    So I think we are trying to build a much tighter connection 
with industry, having industry understand where the Department 
is going so that they can use their budgets accordingly.
    At the end of the day, it is about people. So whether you 
have a budget twice the Department's budget or not, it is 
really about the people that have technical ideas. And I will 
again point back to Ken and the model that DARPA has. You know, 
they can rotate a good part of their portfolio because they can 
bring people in rapid sequence. You know, we actually across 
the Department are trying to build those threads, and that is 
critically important.
    Mr. Thornberry. Yeah.
    In a way, it gives DARPA an advantage, because you do 
rotate your people in so they have that freshness of knowledge 
about what private industry is doing, I guess.
    Dr. Gabriel. Absolutely right, sir. We rotate people in 3- 
to 5-year durations. That not only rotates in fresh ideas, 
fresh perspectives, new perspectives, but it also gives a sense 
of urgency to the people doing their job, right? They have a 
finite time to get it done.
    But I think there are two other areas in which we are 
leveraging and understanding what is happening in the 
commercial marketplace and in industry. One is, 70 percent of 
our budget actually goes to industry--small business, medium-
size, big-size. And often that is leveraging the investments 
that they are making, and are also areas that they are creating 
their next-generation capabilities and products. So that is 
ensuring that we are getting involved with them very early on 
with things that they are looking for in terms of future 
capabilities.
    And, finally, I would say that we are constantly looking at 
our own internal business processes so that we are opening the 
aperture as wide as we can to bring in a greater diversity and 
number of folks to do business. I mentioned Cyber Fast Track in 
my oral testimony--it is in the written--where we have 
consciously worked hard to tap into a segment of the cyber 
community, where, as I shared with you, 84 percent of the 
people that are now working with us had never done business 
with the government before.
    Mr. Thornberry. Thank you.
    Dr. Freeman. And let me go back, if I may, just to one 
point that is, sort of, the outside this country; how do we 
know what is going on outside this country?
    One of the things that we have in the Army, and I think 
other people have something similar, but we have what we call 
ITCs, which are International Technology Centers. And we have 
people who are scientists and engineers who are stationed in 
various places around the world in these centers whose job is 
to go out and look for what is going on out in those areas. We 
have somebody, you know, in Europe, somebody in Africa. We have 
all different places in Asia, et cetera, et cetera, et cetera. 
So we are people who are looking for that. And they come back 
and they report back to us and to our scientists and engineers 
what they are finding out there that is pertinent to us.
    Second of all, let me go back to the people. Those 
scientists and engineers in all of our laboratories go to 
conferences. And it is very important that we allow them to do 
that around the world, because that is one of the places--just 
like you saw things out in California, that is where our 
scientists and engineers see things that are different and 
bring that information back into our corporate laboratories and 
help us to understand how we are doing things either 
differently or where they are with respect to us with 
technology.
    Mr. Thornberry. Yeah. And I know the Navy has a similar 
effort, because we have talked about it.
    And I just think it is--there is so much moving so fast, it 
is an enormous challenge. So I appreciate what you all do.
    I have one last question, and then anything else Mr. 
Langevin may have. I have been preparing for some remarks I 
will have to give later, looking back at one author's opinion 
about--well, actually, he surveys past revolutions in military 
affairs and talks about the technologies that will drive the 
next revolutions in military affairs.
    I would be interested if you all disagree with any of 
these, if you think they are not that big a deal, or if there 
is a big thing that is left out: One is robotics; second is 
space; third is lasers and directed energy; fourth is cyber; 
fifth is nanotechnology; and sixth is biology, both, you know, 
improving our own soldiers and nefarious kinds of biology.
    Does something jump into your mind that he left out there, 
as far as technologies that could drive the next revolution in 
military affairs?
    Yeah, Dr. Gabriel.
    Dr. Gabriel. Yes, sir, if I may, I think one that is 
glaring in its absence is a hyperconnected, socially networked 
world. As you know, everyone is now connected. We talked in my 
oral testimony about hundreds of millions of people walking 
around with cell phones. But they are connected now, and they 
are connected in ways that was not possible even 10 years ago.
    We did, as we shared with you before, a competition at the 
40th anniversary of the building of the Internet where the 
competition was to find ten 8-foot-diameter red weather 
balloons situated somewhere in the lower 48 States. Those 
balloons were found in 8 hours and 52 minutes by socially 
networked, connected groups that had an incentive to find them. 
This was a $40,000 prize. Those ten 8-foot-diameter red weather 
balloons could not have been found with the assets--the 
traditional assets that we had.
    So they are creating both opportunities and threats for us 
with this sort of capability.
    Mr. Thornberry. And so, Arab Spring-like examples. Your 
point is that that whole phenomena is a whole field in and of 
itself. It is not just faster communication; it is a whole 
field in and of itself.
    Dr. Gabriel. Absolutely, sir. Not only for--imagine you set 
up a checkpoint, we set up a checkpoint somewhere, and within 
seconds everybody knows where it is, how many people are there 
because of that connectivity that is everywhere in the world. 
In Bangladesh, there are 30--out of 100 in the population, 30 
have cell phones. Worldwide average is 64 per 100.
    Mr. Thornberry. Interesting.
    Dr. Freeman. I guess I would add one more, and it is more 
of the things that it could be good or it could be bad, and it 
is about power and energy. And if we do not--I mean, we really 
have to--I mean, and some of these things like nanotechnology 
and some of those other things are part of that, but a real 
focus on where and what we can do with power and energy is 
really, really something that I think can either be a game-
changer or it can be a game-killer.
    Mr. Thornberry. Yeah. No, that is a good point. It bothered 
me a little bit, one of you all mentioned reducing your 
investment on energy as a result of the budget cuts. And, yeah, 
I take your point. It will be central to anything we do in the 
future.
    Anybody have anything else?
    Mr. Langevin, do you have any other questions?
    Mr. Langevin. I thank the panel.
    Mr. Thornberry. Yeah. Well, I do, too.
    Thank you. Again, you all timed it just perfectly. Votes 
are about to start. And so, thank everybody for being here and 
for what you have done.
    With that, the hearing is adjourned.
    [Whereupon, at 4:55 p.m., the subcommittee was adjourned.]
?

      
=======================================================================



 
                            A P P E N D I X

                           February 29, 2012

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 29, 2012

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3433.001
    
    [GRAPHIC] [TIFF OMITTED] T3433.002
    
    [GRAPHIC] [TIFF OMITTED] T3433.003
    
    [GRAPHIC] [TIFF OMITTED] T3433.004
    
    [GRAPHIC] [TIFF OMITTED] T3433.005
    
    [GRAPHIC] [TIFF OMITTED] T3433.006
    
    [GRAPHIC] [TIFF OMITTED] T3433.007
    
    [GRAPHIC] [TIFF OMITTED] T3433.008
    
    [GRAPHIC] [TIFF OMITTED] T3433.009
    
    [GRAPHIC] [TIFF OMITTED] T3433.010
    
    [GRAPHIC] [TIFF OMITTED] T3433.011
    
    [GRAPHIC] [TIFF OMITTED] T3433.012
    
    [GRAPHIC] [TIFF OMITTED] T3433.013
    
    [GRAPHIC] [TIFF OMITTED] T3433.014
    
    [GRAPHIC] [TIFF OMITTED] T3433.015
    
    [GRAPHIC] [TIFF OMITTED] T3433.016
    
    [GRAPHIC] [TIFF OMITTED] T3433.017
    
    [GRAPHIC] [TIFF OMITTED] T3433.018
    
    [GRAPHIC] [TIFF OMITTED] T3433.019
    
    [GRAPHIC] [TIFF OMITTED] T3433.020
    
    [GRAPHIC] [TIFF OMITTED] T3433.021
    
    [GRAPHIC] [TIFF OMITTED] T3433.022
    
    [GRAPHIC] [TIFF OMITTED] T3433.023
    
    [GRAPHIC] [TIFF OMITTED] T3433.024
    
    [GRAPHIC] [TIFF OMITTED] T3433.025
    
    [GRAPHIC] [TIFF OMITTED] T3433.026
    
    [GRAPHIC] [TIFF OMITTED] T3433.027
    
    [GRAPHIC] [TIFF OMITTED] T3433.028
    
    [GRAPHIC] [TIFF OMITTED] T3433.029
    
    [GRAPHIC] [TIFF OMITTED] T3433.030
    
    [GRAPHIC] [TIFF OMITTED] T3433.031
    
    [GRAPHIC] [TIFF OMITTED] T3433.032
    
    [GRAPHIC] [TIFF OMITTED] T3433.033
    
    [GRAPHIC] [TIFF OMITTED] T3433.034
    
    [GRAPHIC] [TIFF OMITTED] T3433.035
    
    [GRAPHIC] [TIFF OMITTED] T3433.036
    
    [GRAPHIC] [TIFF OMITTED] T3433.037
    
    [GRAPHIC] [TIFF OMITTED] T3433.038
    
    [GRAPHIC] [TIFF OMITTED] T3433.039
    
    [GRAPHIC] [TIFF OMITTED] T3433.040
    
    [GRAPHIC] [TIFF OMITTED] T3433.041
    
    [GRAPHIC] [TIFF OMITTED] T3433.042
    
    [GRAPHIC] [TIFF OMITTED] T3433.043
    
    [GRAPHIC] [TIFF OMITTED] T3433.044
    
    [GRAPHIC] [TIFF OMITTED] T3433.045
    
    [GRAPHIC] [TIFF OMITTED] T3433.046
    
    [GRAPHIC] [TIFF OMITTED] T3433.047
    
    [GRAPHIC] [TIFF OMITTED] T3433.048
    
    [GRAPHIC] [TIFF OMITTED] T3433.049
    
    [GRAPHIC] [TIFF OMITTED] T3433.050
    
    [GRAPHIC] [TIFF OMITTED] T3433.051
    
    [GRAPHIC] [TIFF OMITTED] T3433.052
    
    [GRAPHIC] [TIFF OMITTED] T3433.053
    
    [GRAPHIC] [TIFF OMITTED] T3433.054
    
    [GRAPHIC] [TIFF OMITTED] T3433.055
    
    [GRAPHIC] [TIFF OMITTED] T3433.056
    
    [GRAPHIC] [TIFF OMITTED] T3433.057
    
    [GRAPHIC] [TIFF OMITTED] T3433.058
    
    [GRAPHIC] [TIFF OMITTED] T3433.059
    
    [GRAPHIC] [TIFF OMITTED] T3433.060
    
    [GRAPHIC] [TIFF OMITTED] T3433.061
    
    [GRAPHIC] [TIFF OMITTED] T3433.062
    
    [GRAPHIC] [TIFF OMITTED] T3433.063
    
    [GRAPHIC] [TIFF OMITTED] T3433.064
    
    [GRAPHIC] [TIFF OMITTED] T3433.065
    
    [GRAPHIC] [TIFF OMITTED] T3433.066
    
    [GRAPHIC] [TIFF OMITTED] T3433.067
    
    [GRAPHIC] [TIFF OMITTED] T3433.068
    
    [GRAPHIC] [TIFF OMITTED] T3433.069
    
    [GRAPHIC] [TIFF OMITTED] T3433.070
    
    [GRAPHIC] [TIFF OMITTED] T3433.071
    
    [GRAPHIC] [TIFF OMITTED] T3433.072
    
    [GRAPHIC] [TIFF OMITTED] T3433.073
    
    [GRAPHIC] [TIFF OMITTED] T3433.074
    
    [GRAPHIC] [TIFF OMITTED] T3433.075
    
    [GRAPHIC] [TIFF OMITTED] T3433.076
    
    [GRAPHIC] [TIFF OMITTED] T3433.077
    
    [GRAPHIC] [TIFF OMITTED] T3433.078
    
    [GRAPHIC] [TIFF OMITTED] T3433.079
    
    [GRAPHIC] [TIFF OMITTED] T3433.080
    
    [GRAPHIC] [TIFF OMITTED] T3433.081
    
    [GRAPHIC] [TIFF OMITTED] T3433.082
    
    [GRAPHIC] [TIFF OMITTED] T3433.083
    
    [GRAPHIC] [TIFF OMITTED] T3433.084
    
    [GRAPHIC] [TIFF OMITTED] T3433.085
    
    [GRAPHIC] [TIFF OMITTED] T3433.086
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 29, 2012

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MILLER

    Mr. Miller. In light of today's constrained fiscal environment, can 
you talk to the importance of Developmental Test & Evaluation and its 
importance in controlling acquisition costs?
    Secretary Lemnios. Developmental Test & Evaluation (DT&E) is one of 
the critical elements in controlling acquisition costs.
    Since the late 1990s, major weapons systems have been failing 
initial operational testing and evaluation (IOT&E) at an increasing 
rate. Specifically, 25 percent of programs completing IOT&E between 
1984 and 2000 failed either Effectiveness or Suitability. By the time 
Congress enacted and the President signed the Weapon Systems 
Acquisition Reform Act (WSARA), this failure rate had increased to 43 
percent. Developmental Test & Evaluation is an important element of any 
program to ensure that deficiencies in acquisition programs are 
identified early--when it is most cost-effective to fix them--before 
programs reach operational testing or production milestones. Tight 
concurrency between DT&E and production decisions risks elevated 
retrofit costs that could have been avoided by proper phasing of DT&E. 
Robust DT&E across the Department's acquisition programs is the 
mechanism to deliver vital data.
    Mr. Miller. Congress created the position of Director of 
Developmental Test & Evaluation to ensure that deficiencies in programs 
are identified and addressed before those programs reach operational 
testing--because it's cheaper to find it and fix it early than it is to 
go back and fix it once it's already in production. The Director, 
Operational Test & Evaluation has 326 programs he's responsible for. 
The Director, DT&E has about 270 programs, but only \1/4\ of the staff 
of DOT&E. Do you believe OSD/DT&E is properly resourced in terms of 
both manpower and funding?
    Secretary Lemnios. The FY13 President's Budget Request for OSD/DT&E 
manpower and funding would provide adequate resources to support the 
responsibilities of the office.
    We have effectively used government detailees, government 
rotational assignments and technical staff across our Federally Funded 
Research and Development Centers to add capacity and bring technical 
depth into the office. These resources have allowed us to increase the 
capacity of DT&E and share best practices across the Department to 
effectively engage with major defense acquisition programs for which 
DT&E has statutory oversight.
    Mr. Miller. In 2009, Congress passed the Weapons System Acquisition 
Reform Act, which states that the Deputy Assistant Secretary of Defense 
for DT&E shall be the principal advisor to the Secretary of Defense and 
the Under Secretary for Acquisition, Technology, and Logistics, on 
developmental test and evaluation. It also states that the DDT&E will 
report to and be supervised by the Under Secretary. Do you believe the 
Department of Defense has complied with that legislation in terms of 
organizational and reporting structures it has put in place?
    Secretary Lemnios. I believe the Department has complied with WSARA 
in terms of organizational and reporting structures. The DASD (DT&E) 
advises the Secretary of Defense and the Under Secretary of Defense for 
Acquisition, Technology and Logistics on all matters relating to 
developmental test and evaluation within the Department. In particular, 
the USD(AT&L), as the Milestone Decision Authority for Major Defense 
Acquisition Programs, relies on the DASD(DT&E) for advice on the 
demonstrated maturity of designs to enter initial production and on the 
adequacy of planned test programs at the beginning of Engineering and 
Manufacturing Development. The reporting chain through ASD(R&E) allows 
for alignment between DT&E and Systems Engineering efforts within the 
Department.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. I am pleased to see the emphasis on cybersecurity in 
each of your testimony, and I am also pleased that since last year's 
hearing on these matters the Department of Defense has identified cyber 
as one of the Department's seven key S&T areas. Secretary Lemnios, how 
are you ensuring that the various defense cyber R&D efforts are both 
responsive to the DOD Strategy for Operating in Cyberspace and well-
coordinated across agencies and individual laboratories?
    Secretary Lemnios. The Department recently established the Cyber 
Investment Management Board (CIMB) in response to the National Defense 
Authorization Act (NDAA) for Fiscal Year 2011. This board is comprised 
of the Department's policy, acquisition, and technology leaders, to 
provide strategic oversight of the Department's cyber investments. To 
shape the Department's cyber S&T investments, the DoD Cyber S&T Working 
Group was established. It brings together representatives from across 
DoD's operational and S&T organizations and serves as focal point for 
coordination of cyber S&T across the DoD research community and related 
DoD organizations. This Department-wide Working Group was entrusted 
with the task of developing the Cyber S&T Roadmap that outlines the S&T 
gaps and leap-ahead capabilities needed to implement the DoD Strategy 
for Operating in Cyberspace. ASD (R&E) established a pair of cyber 
security program elements to address gap areas and create enhanced 
cross-laboratory collaboration among the Services and NSA at the 
technical level.
    Mr. Langevin. For the panel, what do we need to change to ensure 
that we are better able to identify and mitigate risks in the cyber 
domain?
    Secretary Lemnios. In the short term, we are working with the 
commercial vendors to harden their IT products to be resilient to 
attack through efforts such as the Enduring Security Framework. Over 
the longer term, cyber research needs to mature like other scientific 
disciplines.
    The science underpinning cyber is immature. To address these 
shortcomings, DoD research agencies such as the Air Force Office of 
Scientific Research fund university research on this topic. In 
addition, we have designed and initiated a cyber measurement campaign 
to assess the performance of cyber technology quantitatively. This 
campaign will develop a comprehensive, long-term plan to incorporate 
quantitative assessment into cyber S&T. This includes identifying the 
technical foundations for a cyber measurement framework, developing 
technically sound metrics, and developing capabilities to fill 
experimentation and test range gaps.
    The DoD research community is working with the Intelligence 
Community and industry to provide early warning on new cyber risks, 
threats, and exploits. In 2011, the Cyber S&T Priority Steering Council 
developed a research roadmap covering the foundations of trust, 
resilient infrastructure, agile operations, and mission assurance as 
technical foundations for cyber security. The ASD(R&E) Cyber Applied 
Research and Advanced Development programs are also investing in tools 
for software and hardware analysis, hardening of tactical systems and 
moving target defenses. Research in these areas will enhance our 
ability to identify and mitigate operational and supply chain risks.
    Mr. Langevin. Secretary Lemnios, how would you characterize the 
health of the DOD labs and the R&D workforce?
    Secretary Lemnios. I would characterize the health of the DoD 
laboratories as sufficient to meet current missions. However, I also 
see a need to strengthen this enterprise in an era where technology is 
globally available and innovation cycles have collapsed from years to 
months.
    The DoD labs continue to serve as the core element of the 
Department's technical base. Indeed, the 37,000 scientists and 
engineers (S&E) in our labs represent 34 percent of the Department's 
total S&E population. Of these scientists and engineers, 26 percent 
possess Masters degrees while nine percent possess PhDs. This higher 
than the U.S. national S&E workforce, which is comprised of 21 percent 
Masters degrees and seven percent PhDs (FY2010 data from the National 
Science Board 2012 Science and Engineering Indicators report). DoD labs 
are part of a national security enterprise that works closely with 
other laboratories including Federally Funded Research & Development 
Centers (FFRDCs), University Affiliated Research Centers (UARCs), 
Academia, Industry and the Department of Energy (DOE) National labs in 
developing future warfighting technologies as well as providing quick 
response to immediate warfighting technical needs. Each lab has unique 
capabilities to meet specific missions that we closely monitor to 
ensure the Department's core technical competencies are addressed. Our 
labs support the most technically advanced military in the world and we 
believe the laboratories have played a major role in achieving this 
accomplishment.
    Our laboratory system is a mix of corporate research labs, e.g., 
Naval Research Lab and Army Research Lab that maintain basic science as 
their primary focus, and engineering centers such as the Navy Warfare 
Centers and the Army's Research and Engineering Development Centers 
that maintain the Department's in-house system engineering expertise. 
The Services invest approximately one third of their basic science 
budgets to in-house programs. A recent review of the labs' basic 
science program was conducted by the Defense Science Board and 
concluded the in-house basic research program is technically strong and 
healthy.
    Mr. Langevin. How does the Department utilize its STEM education 
and outreach programs to build the workforce we need for the future? 
How does the Department coordinate efforts and balance depth versus 
breadth with regards to STEM outreach?
    Secretary Lemnios. The portfolio of DoD STEM education and outreach 
programs provides the Department with opportunities to provide an 
incentive to large numbers of young people across the country to pursue 
STEM education as well as to produce a high-quality STEM workforce. The 
ASD(R&E) chaired STEM Executive Board, which is comprised of Senior 
leadership from across the Department, serves as the primary mechanism 
for cross-Departmental coordination, and for Department-wide balance 
regarding depth and breadth.
    DoD STEM programs at the undergraduate and graduate levels provide 
the Department a source of high-quality talent available for the DoD 
workforce. The Science, Mathematics and Research for Transformation 
(SMART) program, a scholarship-for-service program, provides students 
and current DoD employees an opportunity to pursue undergraduate or 
graduate degrees in one of 19 academic disciplines that are critical to 
the Department's STEM workforce needs. Students are required to provide 
a year of service in one of the DoD's laboratories for each year of 
funding received through SMART. To date, nearly 400 students have 
completed degrees and joined the DoD workforce.
    The National Security Science and Engineering Faculty Fellowship 
(NSSEFF) provides research awards to 29 high-performing and 
distinguished university researchers and their students to conduct 
revolutionary research that is critical to DoD and national security. 
In turn, these 29 Fellows have attracted over 400 exceptional students 
and postdoctoral scholars. These researchers and their students have 
made significant contributions in critical areas to DoD. As evidence, 
their research productivity has resulted in over 1,000 presentations 
(418 international), 329 peer-reviewed publications and 39 patents. To 
ensure that DoD has direct connectivity with NSSEFF students, they have 
been engaged with DoD scientists and engineers at our laboratories and 
presented at a student focused conference.
    Mr. Langevin. Are there particular concerns that you have with 
regards to the health of the DOD R&D community that we need to address?
    Secretary Lemnios. Maintaining the health of the DoD R&D community 
is one of my top priorities. As with any ``thought-based'' enterprise, 
the quality of people is at the top of the priority pyramid. Without 
high quality people, the health of the R&D community will be difficult 
to maintain. The DoD laboratory community (a subset of the overall R&D 
community) is distributed and diverse, and is comprised of 37,000 
scientists and engineers (S&E) and represent 34 percent of the 
Department's total S&E population. Of these scientists and engineers, 
26 percent possess Masters degrees while nine percent possess PhDs. 
This is higher than the U.S. national S&E workforce, which is comprised 
of 21 percent Masters degrees and seven percent PhDs. The overall R&D 
enterprise is of similarly high quality, and consists of public 
employees and uniformed Service members in DoD agencies and labs, 
researchers in academia, scientists and engineers in DoD-sponsored 
Federally-Funded R&D Centers (FFRDCs), research staff at the National 
Labs, and technologists at DoD prime contractors and small businesses. 
As the Department shifts its focus to the priorities called for in the 
new DoD strategy Sustaining U.S. Global Leadership: Priorities for 21st 
Century Defense, it is important that all of these sectors in the DoD 
R&D community remain fully engaged.
    The President's FY 13 Budget Request is carefully crafted to ensure 
that all these sectors of the DoD R&D community can continue to 
contribute robustly to the evolving challenges.
    Mr. Langevin. For the panel, what do we need to change to ensure 
that we are better able to identify and mitigate risks in the cyber 
domain?
    Dr. Freeman. I believe that Army S&T has sufficient funding and 
authorities to execute our cyber security efforts. S&T efforts are 
focused on securing our tactical networks, to provide a more secure 
foundation in which participants and components, including devices and 
software, are able to work together in near real time to: identify, 
prevent and anticipate cyber attacks, limit the spread of attacks 
across participating devices; minimize the consequences of attacks; and 
recover systems and networks to trusted states.
    Mr. Langevin. Are there particular concerns that you have with 
regards to the health of the DOD R&D community that we need to address?
    Dr. Freeman. I have three major areas of concern--infrastructure, 
facilities and workforce. With regard to facilities, we are currently 
undertaking a comprehensive site survey to document the condition and 
capabilities of our S&T infrastructure and facilities. Currently, the 
condition of facilities is examined at the installation level against a 
set of criteria that does not consider the specialized scientific 
requirements of our buildings. This approach does not give us the data 
required to truly understand the particular needs of the S&T facilities 
themselves, as opposed to the overall health of the installations on 
which they are located. This is a complicated undertaking, as the S&T 
enterprise is spread over five commands, and in many cases those 
commands are not the owners of the buildings they use. However, without 
this comprehensive survey, we will not be able to produce a true 
priority list for the most urgent areas of concern. With respect to our 
workforce, people are the Army's most valuable resource. Our Science 
and Technology workforce comprises government civilian scientists, 
technicians, engineers, wage grade workers and support personnel, as 
well as Soldiers and contract personnel who offer a wide array of 
specialties and abilities that allow Army science and technology labs 
and centers to cover the full spectrum of research, engineering and 
operational support for the nation, particularly the Warfighter. 
Developing and maintaining the world-class cadre of scientists, 
engineers, and technologists we have requires a three-phased approach:
    1) invest in educational outreach initiatives to build a diverse, 
STEM capable talent source for the future workforce,
    2) invest in research initiatives at the college and graduate 
school level to provide focus and generate expertise for the next 
generation of Army researchers, and
    3) grow existing workforce capabilities through exchange programs 
and other authorities that provide for workforce development to help us 
maintain a vibrant, agile, well-educated cadre of Scientist and 
Engineers. Perhaps our most serious challenge is the contemplated 
workforce reductions necessitated by a severely constrained budget. 
Without a world-class cadre of scientists and engineers, and the 
infrastructure that supports their work, the Army S&T enterprise would 
be in serious trouble. Previous 1-n lists developed by each command 
have ranked our S&T positions lower in priority than other non-S&T 
positions, and a disproportionate loss of science and engineering 
talent could have devastating consequences for the Army. Continuing 
this practice, or following a ``last in, first out'' approach to 
reducing the workforce will have severe ramifications on our ability to 
provide our current and future Soldiers with the technology that 
enables them to defend America's interests and those of our allies 
around the world.
    Mr. Langevin. For the panel, what do we need to change to ensure 
that we are better able to identify and mitigate risks in the cyber 
domain?
    Admiral Klunder. This is a very complicated question with few easy 
answers. First and foremost, every interface and interaction in 
cyberspace is a potential vulnerability. This is an asymmetric 
situation where the defender must protect everything and the attacker 
can succeed by circumventing a single defensive barrier. There are a 
number of key elements that comprise our cyber domain, each of which 
provides our adversaries with potential exploitable vulnerabilities and 
result in significant challenges for the defender. The most prevalent 
examples include software (applications as well as operating systems), 
hardware (including microprocessors and programmable logic such as 
field programmable gate arrays (FPGAs)), and lastly, the user. 
Complicating this picture is the fact that we lack the critical 
technological understanding of the information technology (IT) supply 
chain that we employ in our critical systems--resulting in pool of 
unknown vulnerabilities ripe for exploitation. The supply chain also 
includes DoD contractors and subcontractors and the challenges in 
protecting the integrity of their networks the data.
    Additionally, embracing commercial practices and technology has 
made for an uneasy tradeoff between affordability and security. The 
results and effects are irreversible--large parts of our information 
infrastructure use foreign technologies and manufactured parts 
including chipsets, firmware, software applications, computer 
workstations and peripherals, and the very Internet routers moving DoD 
email through cyberspace. Software, likely the most critical of the 
three aforementioned key elements, is a major source of security 
failures and exploited vulnerabilities, and which largely remains a 
craft practiced by artisans, not engineers, despite the years of basic 
research into the mathematics of programming languages and algorithms. 
Defects from whatever source such as poorly defined protocols, 
inadequate testing, and ambiguous requirements and/or specifications 
create exploitable vulnerabilities. Expectations for patch management 
are assumed upon delivery and even prior to initial operation. Such 
practices have created a reactive rather than proactive environment, 
and in large part, these practices have been accepted by the military.
    These challenges have resulted in the development of a 
comprehensive strategy that is comprised of three major tenets. The 
first tenet of our science and technology (S&T) program is to address 
software and the vulnerabilities that result from the previously 
illustrated example defects. The strategy includes developing tools to 
automatically analyze and reduce layering and software growth. This 
results in smaller, simpler and more cohesive software that should 
improve module verification and system level testing. Next, tools are 
being developed to analyze commercial-off-the-shelf (COTS) shrink-wrap 
software (executable binary code). This analysis affords us two 
opportunities never available before: first, we can now detect the 
presence of embedded malicious code and second, we can ``trim'' 
unnecessary software features not required for use in our military 
environment. Our software strategy is also focused on developing tools 
for better whole code software verification and automated testing of 
both government-off-the-shelf (GOTS) and COTS software.
    The second tenet of our S&T program is to address hardware 
vulnerabilities, with particular emphasis on the challenges we face 
with our supply chain. Efforts are currently focused on new anti-tamper 
technology to detect when unauthorized changes have occurred. These new 
approaches include, for example, hardware metering techniques and 
physical unclonable function (PUF) circuits. We see promise in these 
technologies and their value in protecting our hardware devices and the 
associated intellectual property.
    Lastly, the third tenet of our S&T program is to address users and 
their associated behavior in cyber space. Realize, for example, the 
success of a phishing attack is predicated on the successful 
exploitation of the user. We recognize that we cannot address the vast 
pool of vulnerabilities across our cyber domain, therefore, in this 
tenet we are developing technologies (algorithms, techniques, sensors, 
etc.) to improve our detection and pro-active remediation of 
insecurities by characterizing behavior that is vulnerable to 
exploitation. These behavioral models are not only of the user, but the 
applications that operate on the network as well--with particular 
emphasis on identifying the genesis of ``behavior'' that typically 
results in insecurities.
    Mr. Langevin. Are there particular concerns that you have with 
regards to the health of the DOD R&D community that we need to address?
    Admiral Klunder. U.S. military supremacy has been tightly linked to 
technological dominance. We need to maintain a strong R&D community and 
infrastructure to ensure our technical dominance.
    The Department of Navy (DoN) R&D community is comprised of 15 major 
activities supporting the broad spectrum of DoN missions and technology 
requirements. The Naval Research Laboratory (NRL), 12 Warfare Centers, 
and 2 Systems Centers provide the critical science and engineering 
back-bone to ensure sustained technological superiority.
    The Navy appreciates the Congress' continued support of Section 
852, the Acquisition Workforce Fund that has authorized recruitment, 
training, and retention of scientists and engineers with the skills and 
experience necessary to meet our technical challenges. Additionally, 
the Navy appreciates the Congress' support of Section 219 enabling 
defense laboratories to invest in critical scientific and engineering 
capabilities of their respective mission areas. These have reaped 
positive benefits for the DoN.
    The Naval Research Laboratory (NRL) conducts some of the most 
advanced research in the world, which depends on state-of-the-art, 
costly, high-precision equipment and facilities. Deferred investment in 
facilities hinders the recruitment and retention of a high quality 
workforce, causes millions of dollars in damage to laboratories and 
equipment, and results in many months of delays to critical research 
projects while laboratories are restored. Maintaining and revitalizing 
the Naval R&D infrastructure remains a concern. This is underscored 
even more during this period of tightened budgets.
    The Warfare and Systems Centers are key conduits for integration 
technologies into existing and future systems and platforms. As was 
noted in the 2010 Naval Research Advisory Committee (NRAC) study on the 
Status and Future of the Naval R&D Establishment, the Warfare Centers 
and Systems Centers are a ``gateway between current and emerging 
technologies and future Naval warfare capabilities.'' Conscious and 
sustained investment in the workforce and infrastructure of these 
activities is essential for our future security.
    Mr. Langevin. For the panel, what do we need to change to ensure 
that we are better able to identify and mitigate risks in the cyber 
domain?
    Dr. Walker. Our vision is for an assured cyber advantage across 
air, space, cyber, C4ISR (command, control, communications, and 
computer (C4) intelligence, surveillance, and reconnaissance (ISR)), 
and infrastructure. An end state would include assured air, space and 
cyber operations conducted globally through a wide spectrum of cyber 
conditions and threats; a full spectrum set of cyber capabilities to 
reliably deliver a broad range of effects; persistent, global, cyber 
situation awareness; integrated command and control for kinetic and 
cyber weapon effects; assured, reliable, affordable supply chains for 
cyber infrastructure; and highly skilled and effective cyber-warriors 
and workforce. Successfully accomplishing such a vision requires not 
just Air Force leadership but the ability to leverage technology 
developments from industry, other Services and government agencies to 
develop capabilities to meet Air Force requirements.
    To ensure we are better able to identify and mitigate risks in the 
cyber domain, we need to achieve the following four strategic goals:
    1. Assure and Empower the Mission--Enable Air Force missions to be 
assured while cyber threats are avoided, identified, contained and/or 
defeated; conduct effective full spectrum operations while maintaining 
real-time situational awareness for command and control.
    2. Create Next-Generation Cyber Warriors--Select, educate, train, 
and augment cyber warriors for superior performance; enable 
visualization of a complex cyber common operational picture.
    3. Enhance Agility and Resilience--Develop resilient, agile 
architectures that can avoid, fight through, and recover from attacks; 
intelligently mix government and commercially-developed technology to 
achieve both trust and affordability.
    4. Invent Foundations of Trust and Assurance--Provide the Air Force 
with organic capabilities to mitigate supply chain intervention and to 
establish hardware and software root-of-trust; create the foundations 
of trust for applications, functions and missions; develop the 
mathematical algebra to represent missions, applications and 
infrastructure for provably correct mission characterizations in 
contested environments.
    Mr. Langevin. Are there particular concerns that you have with 
regards to the health of the DOD R&D community that we need to address?
    Dr. Walker. The health of the R&D community depends on our ability 
to retain a strong science, technology, engineering, and mathematics 
(STEM) workforce. The Air Force is developing measures through our STEM 
Advisory Council and Bright Horizons, the Air Force STEM Workforce 
Strategic Roadmap, to improve our ability to attract, retain, shape, 
and manage our mission critical STEM workforce. Bright Horizons 
discusses the national challenge of producing STEM-degreed talent and 
the importance of Air Force maintaining a competitive edge by 
recruiting and retaining STEM personnel.
    The Air Force is confronted with supply and demand challenges that 
require us to strategically manage our STEM workforce. These problems 
include a declining STEM talent pool from our educational system, lack 
of diversity in our future STEM workforce, worldwide competition for 
STEM talent, and low attraction to Air Force STEM careers.
    Through Bright Horizons, we are identifying current and future STEM 
workforce requirements, developing strategies to address any gaps 
between them, and establishing methods to measure for success. 
Priorities for the Air Force include hiring of STEM-degreed 
individuals, STEM interns, and Science, Mathematics and Research for 
Transformation (SMART) Scholars; and protecting STEM training and 
education resources. Our STEM workforce is critical to the Air Force, 
and our success depends upon implementing the initiatives within Bright 
Horizons.
    Mr. Langevin. For the panel, what do we need to change to ensure 
that we are better able to identify and mitigate risks in the cyber 
domain?
    Dr. Gabriel. [The information was not available at the time of 
printing.]
    Mr. Langevin. Are there particular concerns that you have with 
regards to the health of the DOD R&D community that we need to address?
    Dr. Gabriel. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. The Department of Defense invests millions of dollars 
each fiscal year in research and development through our universities, 
yet most of these initiatives do not advance to the applied and 
advanced research levels. What can be done to assist universities with 
technology transfer in order to ensure DoD is getting a return on their 
investments? Would the Department of Defense consider partnership 
programs with experts in the field of technology transfer to assist 
universities cross the bridge from innovation to commercialization?
    Secretary Lemnios. The Department's funding of research and 
development through universities is principally executed through 6.1 
basic research project funds. These efforts support long term 
investments in new technologies and concepts where discovery is needed 
and the underlying technology base needs to be developed. While our 
universities excel at basic research, not all funded concepts will 
advance to applications. Many will set the foundation for future 
applications, while others will be overcome by competing ideas in the 
advanced research process. As such, the return on investment is 
measured in long timelines with the understanding that today's basic 
research investments provide future options that would not be available 
without seed research funding.
    For those concepts that are reaching maturity, the Department is 
launching a pilot effort to facilitate the transfer of university-
developed innovation to industry for commercialization. This effort 
involves inviting industry scientists familiar with the development of 
advanced technologies from firms from the defense industrial base to 
attend the Department's Multidisciplinary University Research 
Initiative (MURI) project reviews. By inviting industry to these 
reviews, which had not been done before, we hope to facilitate early 
stage information exchange between university researchers and industry 
product developers. MURI projects are DoD funded multi-university and 
multidisciplinary projects that bring together prominent scientists to 
develop new concepts in emerging areas of basic science; there are 
approximately 150 MURI projects currently underway. Industry attendance 
at the reviews provides the firms insight into the university research 
and opportunities for them to cement early relationships with the 
researchers in areas of interest to the firm. We believe developing 
these early relationships while the research is underway will 
facilitate the transfer of university developed technology into 
commercial products much faster and more completely than is done today. 
At the first meeting of this pilot effort sixteen firms from the 
defense industrial base attended and interacted with the university 
researchers. The response from industry and universities to the pilot 
effort has been positive. The next industry-university MURI review is 
planned to occur around August 8-10, 2012.
    We are starting with the MURI program because it has a demonstrated 
track record of major accomplishments and proven to be an excellent 
source of new and very innovative concepts that can lead to new 
products. As this pilot effort progresses we plan to host joint 
workshops with our industrial base and academic associations to discuss 
ways to apply the lessons learned from this pilot program to other DoD-
funded university and defense lab basic research programs.
    Mr. Shuster. As chairman of the Panel on Business Challenges within 
the Defense Industry, I have seen the incredible capability that Small 
Businesses can bring to the table to quickly and effectively innovate 
and commercialize technology. What is the Department of Defense doing 
to utilize small businesses to facilitate technology transfer and help 
advance University and Defense Lab research progress to full-scale 
production? What mechanisms do you have to transition the efforts of 
the S&T community, including Small Business Innovative Research (SBIR) 
programs, into major acquisition programs of record?
    Secretary Lemnios. There are a number of programs available to 
transition small business research efforts into programs of record.
    <bullet> The Rapid Innovation Fund was established by section 1073 
of the Ike Skelton National Defense Authorization Act for Fiscal Year 
2011 which gives priority to small business technology that resolve 
joint urgent, or critical national security needs. The RIF focuses on 
relatively mature technology that can be transitioned into an 
acquisition program, or made available to the Department as a new 
commercial product within 24 months. The Department is beginning 
contract awards and will have a better sense of the success of the RIF 
in 3Q FY 2013.
    <bullet> The DoD SBIR/STTR Program currently has two programs to 
encourage the transition of SBIR and Small Business Technology Transfer 
(STTR) research into DoD acquisition programs: the Phase II Enhancement 
Program, and the Commercialization Pilot Program.
        --The SBIR/STTR Phase II Enhancement Program facilitates 
        transition by providing SBIR/STTR Phase II awardees with 
        additional funds when there is a strong pull for the awardee's 
        technology. To qualify for the enhancement funds, the awardee 
        must provide matching funds from a non-SBIR/STTR source; e.g., 
        a DoD acquisition program or the private sector.
        --The Commercialization Pilot Program accelerates 
        commercialization and fielding of capabilities through enhanced 
        collaboration among the small business, prime contractors, and 
        the DoD science and technology acquisition communities. 
        Participation in the CPP is by invitation, and participants 
        receive a variety of assistance services and/or opportunities 
        to include modifications to existing Phase II contracts with 
        additional non-SBIR funding and/or additional SBIR funding 
        beyond the normal SBIR funding guidelines. The purpose of the 
        additional funds is expand research, development, test, or 
        evaluation that leads to an accelerated transition and 
        commercialization. DoD Components have criteria and processes 
        to identify projects with the potential for rapid transition.
    <bullet> The Department's Rapid Reaction Fund (RRF) and Quick 
Reaction Fund (QRF) programs have been used to accelerate the 
transition of technology developed by small businesses. One example is 
the Augmented Reality Visualization of the Common Operating Picture 
(ARVCOP) project. This concept was funded through RRF and resulted in 
an augmented reality tactical display that allows sailors to visualize 
hazards, sea lanes, markers, etc., in reduced visibility. ARVCOP is 
currently being used by the Navy, and a variant of the capability is 
available on the commercial market.
                                 ______
                                 
                QUESTIONS SUBMITTED BY MR. RUPPERSBERGER
    Mr. Ruppersberger. What is the long term investment strategy in 6.1 
basic science and research for the Department of Defense? Which areas 
are being funded strategically to support the long term needs of our 
service and intelligence customers?
    Secretary Lemnios. DoD basic research supports transformational 
science with the potential to revolutionize the Nation's warfighting 
capabilities. In addition, DoD basic research helps educate well over 
ten thousand new scientists and engineers every year, assuring the 
Nation's continued national security, economic vitality, and technical 
preeminence.
    Each of the Military Departments pursues a strategic focus on 
numerous basic science topics including but not limited to, physics, 
lasers and optics, space science, geophysics, oceanographic and 
atmospheric sciences, acoustics, chemistry, biology, materials, 
mathematics, information and computer sciences, decision-making, 
psychology, sociology, aerospace engineering, electrical engineering, 
and mechanical engineering.
    In addition, we have developed a set of six cross-cutting 
``strategic basic science investment areas'', around which we are 
shaping the Department's basic research investment. The six are:
    Engineered Materials: materials not found in nature, and designed 
for ultra-efficient microelectronics, smaller radars, and perhaps the 
next generation of stealth.
    Synthetic Biology: exploiting the convergence of nano-engineering 
and life at the cellular level for the efficient production of food, 
fuel, energy, and new sensors.
    Quantum Information Science: new physical paths towards ultra-
secure communications, precise navigation without GPS, and ultra-fast 
computation.
    Cognitive Neuroscience: understanding the neuro-pathways in the 
human brain and the science of perception, training, and trauma.
    Modeling Human Behavior: understanding how the ensemble of humans, 
known as society, expresses its character, rules, and cultures.
    Nanoscience and nanotechnology: where advances continue unabated, 
and power new future technologies.
    Mr. Ruppersberger. How is the Department of Defense translating 
ideas into practice? Is there a technology commercialization strategy 
other than the use of SBIR and STTR funds?
    Secretary Lemnios. The Department's technology transition strategy 
identifies new mechanisms to engage with non-traditional performers 
including small businesses and opens new channels for small business to 
access Department facilities and resources. This strategy is focused on 
improved transition or commercialization of small business-developed 
technologies through a variety of opportunities including:
    <bullet>  Provide access for small businesses to the Department's 
training and test facilities to test and refine technology development. 
For example, the Joint Experimental Range Complex (JERC) at the U.S. 
Army Yuma Proving Ground provides opportunities for small businesses to 
test and refine their technologies in realistic DoD operational 
environments, and with feedback from operational personnel. The test 
and refine process increases the probability of successful transition 
of the small business technology into a DoD program of record, or into 
commercialization as a new product.
    <bullet>  Provide small businesses access to DoD laboratories' 
intellectual property, personnel, equipment, data, facilities, or other 
resources through Cooperative Research and Development Agreements 
(CRADAs). A CRADA facilitates technology transfer between the federal 
government and private sector by enabling technical exchange and 
information sharing. For example, The Army Research, Development, and 
Engineering Center at Picatinny Arsenal established an agreement with 
the County College of Morris County, N.J. to provide collaborative work 
space with 18 small businesses. The CRADA provides the small businesses 
a structure to use the lab's facilities and equipment to develop their 
technology, and to work collaboratively with lab personnel on 
technology development efforts. The lab and the college provide 
training and business support for the companies, and the companies 
receive funding and staff support from the New Jersey Commission on 
science and Technology and New Jersey Incubation and R&D funding 
programs.
    <bullet>  The Department's Rapid Reaction Fund (RRF) and Quick 
Reaction Fund (QRF) programs focus on developing and fielding solutions 
to operational challenges. One example of a successful developmental 
effort by a small business is the Augmented Reality Visualization of 
the Common Operating Picture (ARVCOP) project. This concept was funded 
through RRF and resulted in an augmented reality tactical display that 
allows sailors to visualize hazards, sea lanes, markers, etc., in 
reduced visibility. ARVCOP is currently being used by Navy riverine 
forces and a variant of the capability is available on the commercial 
market. In a similar engagement model with industry, the QRF funded the 
Inflatable Satcom Antenna project in which a small business developed 
1.8m and 2.4m satellite antennas that can be folded into duffel bags 
for transportation. The antennas can be quickly set up and broken down 
for storage. This capability greatly reduces the logistics requirements 
(size and weight) when compared to moving similar sized traditional 
satcom antennas. The Marine Corps is using the Inflatable Satcom 
Antenna systems.
    <bullet>  The Rapid Innovation Fund (RIF) was established pursuant 
to section 1073 of the Ike Skelton National Defense Authorization Act 
for Fiscal Year 2011 which gives priority to small businesses whose 
technologies resolve joint urgent, or critical national security needs. 
The RIF focuses on relatively mature technologies that can be 
transitioned into an acquisition program, or made available to the 
Department as a new commercial product within 24 months. In September 
2011, the Department issued solicitations for RIF proposals and 
received over 3500 responses. Approximately 160-180 of the responses 
will receive contract awards. The RIF represents an experimental new 
mechanism for the Department of Defense to engage with the small 
business community. The Department is beginning contract awards and 
will have a better sense of the overall effectiveness of this 
congressionally-established program in 3Q FY 2013.
    Mr. Ruppersberger. What is DARPA doing to counter emerging threats? 
What areas require more investments or reallocation of funds to prevent 
technological surprise?
    Dr. Gabriel. DARPA has developed several analytic frameworks. These 
frameworks are designed to be deeply quantitative, to reveal the 
essential parameters governing a decision space, and to reveal gaps and 
opportunities. Accessible to technical and operational executives, the 
analytic frameworks are structured to ensure the Agency, and the 
Department, are better able to choose and focus investments. 
Ultimately, these frameworks have the power to reveal areas where the 
Department is divergent with threats and technological trends and thus, 
need new options.
    For example, following the insights from our ISR analytic 
framework, we shifted our investments from sensor development to 
exploitation.
    Mr. Ruppersberger. What new aerospace platforms is DARPA developing 
to prevent technological surprise? For example are you working on 
anything related to rapid access to space systems, long range global 
strike or high speed rotorcraft?
    Dr. Gabriel. Several programs in the Tactical Technology Office 
(TTO) at DARPA address the prevention of technological surprise through 
aerospace platform and technology development in the areas referenced. 
A brief description of each program is below.
    The Triple Target Terminator program seeks to develop and 
demonstrate a high speed, long range aerodynamic missile to defeat 
current and projected enemy aircraft, cruise missiles, and surface to 
air defense targets.
    The Hypersonic Technologies program is developing and testing an 
unmanned, rocket-launched, maneuverable, hypersonic air vehicle capable 
of very long range, long duration prompt global reach missions.
    Space Enabled Effects for Military Engagements seeks to demonstrate 
technologies enabling small, disposable, affordable satellite 
constellations capable of rapid deployment for persistent tactical 
military ISR applications.
    The Airborne Launch Assist Space Access program is developing a 
system to enable launch of tactically responsive payloads within 24 
hours of request at the cost of $1M per flight in the 100 pound payload 
class.
    System F6 is developing and testing the feasibility and benefits of 
replacing large monolithic spacecraft with a cluster of wirelessly-
interconnected modules capable of secure, real-time resource sharing.
    The Vertical Take-Off and Landing (VTOL) X-Plane program will 
develop and demonstrate in flight VTOL technologies to facilitate 
advancement of the next generation of military rotorcraft with 
significantly improved speed, range, endurance, efficiency; and the 
ability to hover at altitude.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. SCHILLING
    Mr. Schilling. How do you see the role of cyber security advancing 
under the new budgetary constraints? What will be the main obstacles 
and how do you plan to work around those obstacles?
    Secretary Lemnios. The President of the United States and the 
Secretary for Defense released new strategic guidance, Priorities for 
21st Century Defense, which identifies cyber as a key part of the 
January 2012 strategy. Advancement of Cyber S&T is a critical element 
to enable military, intelligence, business operations, and command and 
control of full spectrum military operations, as recognized in the DoD 
Strategy for Operating in Cyberspace. The importance of meeting cyber 
security capability needs is reflected in the designation of cyber as 
one of the Department's seven key S&T areas and an increase in the 
President's Budget Request from $453 million for cyber S&T activities 
in FY12 to $486 million in FY13. This is one of the few major 
investment areas that actually showed growth in the FY13 Request and 
continues to move higher on our list of investment priorities.
    As the ASD (R&E), I established the DoD Cyber S&T Working Group to 
shape the Department's cyber S&T investments. I chartered the 
Department-wide Working Group to develop the Cyber S&T Roadmap. The 
implementation of the Cyber S&T Roadmap and continued success in 
developing capabilities through the ASD(R&E) cyber security program 
elements will enhance cyber security.
    The Department has benefited tremendously from using relatively 
inexpensive and fast-moving commercial technology, but, the resulting 
systems have been simple and inexpensive to attack while being 
difficult and costly to defend. This is exactly the situation our 
strategy will remedy by creating systems with built-in resiliency and 
resistance features to continually change the cost and complexity 
relationships on which attackers currently rely. Our S&T strategy is 
designed to drive up the cost of an adversary's efforts to attack 
compared to the efforts to defend our systems. Focused S&T investment, 
even in an era of tightened budgets, is necessary to drive down the 
cost of the operational effort to defend systems.
    Mr. Schilling. How will the funding of research and development 
inhibit the growth of DOD technical and science capabilities? What will 
be the hardest hit areas?
    Secretary Lemnios. The FY 2013 President's Budget Request (PBR) for 
DoD science and technology is $11.861 billion, which represents a 
balanced, but modest, decline of $386 million compared to the FY 2012 
PBR of $12.247 billion. This is a decline of 4.73 percent when adjusted 
for inflation. Within this budget request, the Department decided to 
more strongly support sustainment of Basic and Applied Research. While 
a decline of just less than 5 percent buying power in the science and 
technology program does have a small impact, it is manageable, and 
reasonable when taken in the context of the overall DoD budget decline. 
Funding reductions occurred in all Services, and seemed to cluster 
around military engineering, weapons research, and energy research. 
Specific areas with greater risk in the Army include: military 
engineering technology development for installations and field 
operations, and applied topographical research for geospatial products; 
plus weapons, munitions, missile, and rocket technology development for 
small precision munitions, such as mortars. Navy reductions were the 
least of the Services and included technology development to improve 
logistics operations, sustainment, and some power & energy programs. 
Within the Air Force, reductions occurred and additional risk was 
accepted in the following areas: laser protection for anti-access 
standoff munitions and for aircraft pilot visors; novel navigation 
techniques for non-permissive environments; space precision navigation 
and timing; trusted systems for avionics devices; and advanced airborne 
networked and wide-band communications. Funding reductions also 
occurred in the following Defense-wide technology areas: National 
Defense Education Program; human, social, cultural, behavior modeling; 
Joint Experimentation; Joint Capability Technology Demonstrations; 
counter weapons of mass destruction; biomaterials technologies; machine 
intelligence; cognitive computing; command, control & communication 
systems; and advanced electronics. Although the reductions are 
numerous, most are below $20 million in magnitude, and funding for the 
Department's highest priority technology programs was protected.
    Mr. Schilling. How will DARPA's role be changed in the new DOD 
force structure and will DARPA change its decision-making processes on 
what projects to pursue? If there are changes, what will they be?
    Dr. Gabriel. There are no entitlements to programs or people at 
DARPA, and we have no internal facilities or infrastructure. Since 
1992, the total number of program managers has remained unchanged at or 
below 120. These technical experts serve for a tour of 3 to 5 year, 
putting their careers in suspended animation in service to country. 
Going forward, it is imperative that DARPA continues to maintain 
maximum flexibility to rapidly hire the best technical minds in our 
nation to help fulfill the DARPA's singular mission to create and 
prevent strategic surprise.
    When determining what projects to choose, the challenge isn't 
coming up with ideas, but rather choosing among them. We ask ourselves 
three questions in determining what projects to pursue:
    <bullet>  Will it be game changing and have a lasting impact for 
the Department and National Security?
    <bullet>  Does it require DARPA technical expertise and agility?
    <bullet>  How does it contribute to the balance of existing DARPA 
investments?

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
